No. 19In the

Supreme Court of the United States
BRIGHAM AND WOMEN’S HOSPITAL, INC.
AND INVESTORS BIO-TECH, L.P.,
Petitioners,
v.
PERRIGO COMPANY AND L. PERRIGO COMPANY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
Christopher Browning
Troutman Sanders LLP
305 Church Street, Suite 1200
Raleigh, NC 27609
(919) 835-4100

James M. Bollinger
Counsel of Record
Timothy P. Heaton
Phoenix S. Pak
Gerald E. Porter
Troutman Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-6000
james.bollinger@troutman.com

Counsel for Petitioners

290496

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The Patent Act expressly provides for compensatory
damages. 35 U.S.C. § 284. When the issues of patent
infringement and compensatory damages are tried before
a jury, judgment as a matter of law setting aside the jury’s
verdict is only appropriate if no reasonable jury could have
come to the same verdict.
In addition to a jury’s award of compensatory
damages, the court post-judgment may award interest,
costs, attorney fees, and enhanced damages (expressed as
a multiplier of up to three times compensatory damages).
The damage multiplier (i.e., enhancement) and the award
of attorney fees for an “exceptional” case are both punitive
in nature and determined in the district court’s discretion
in light of a litigant’s misconduct. The questions presented
by this petition for writ of certiorari are:
1. Whether the punitive enhancement under 35 U.S.C.
§ 284 is collateral to, and therefore not a merits ruling
necessary for final judgment under this Court’s reasoning
in Budinich v. Becton Dickinson & Co., 486 U.S. 196 (1988)
(attorney fee award is “collateral”).
2. Whether this Court should exercise its supervisory
powers to stop the alarming trend of the Federal Circuit’s
setting aside patent infringement jury verdicts by not
applying deferential appellate review that requires
consideration of both sides’ evidence, and precludes
independent “weighing of the evidence” and making
“[c]redibility determinations,” contrary to Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150-51
(2000).

ii
PARTIES TO THE PROCEEDING
BELOW AND RULE 29.6 STATEMENT
The caption of the case contains the names of all the
parties to the proceeding.
Petitioner Brigham and Women’s Hospital, Inc.
is wholly owned by Partners Healthcare System,
Inc. Partners Healthcare System, Inc. has no parent
corporations and no publicly held company owns 10 percent
or more of its stock.
Petitioner Investors Bio-Tech, L.P. has no parent
corporations and no publicly held company owns 10 percent
or more of its stock.

iii
RULE 14.1(b)(iii) STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the above-captioned
case in this Court.
Brigham and Women’s Hospital, Inc. and Investors
Bio-Tech, L.P. v. Perrigo Company and L. Perrigo
Company, Case No. 1:13-cv-11640-RWZ (D. Mass).
The United States District Court for the District of
Massachusetts entered judgment regarding Petitioners’
patent claims in this matter on December 19, 2016.
Brigham and Women’s Hospital, Inc. and Investors
Bio-Tech, L.P. v. Perrigo Company and L. Perrigo
Company, Case Nos. 2017-1950, 2017-2021, 2017-2555,
2018-1243 (Fed. Cir.). The Federal Circuit entered
judgment in this matter on February 28, 2019. The
Federal Circuit denied Petitioners’ combined petition for
panel rehearing and rehearing en banc on May 2, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING
BELOW AND RULE 29.6 STATEMENT  . . . . . . . . . . ii
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 7
A. The Patented Technology . . . . . . . . . . . . . . . . . . . 7
B. The Jury Trial  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

v
Table of Contents
Page
C. Verdict and Post-Trial Proceedings  . . . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . . 12
FOR PURPOSES OF FINAL JUDGMENT,
PUNITI V E ENH A NCEMENTS
SHOULD REMAIN WITH ALL OTHER
POST J U DGMENT MONETA RY
AWARDS – AS COLLATERAL RULINGS
BY THE COURT . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. Exceptional Case and Damage Multiplier
for Enhancements are Collateral Issues
that Cannot “A lter” or “Moot” Final
Judgment on the Merits  . . . . . . . . . . . . . . . . . . . 12
1.

The Federal Circuit Determination
That Enhancements is Accounting
Was Flawed . . . . . . . . . . . . . . . . . . . . . . . . . . 16

2.

The Federal Circuit’s 2013 Bosch
en banc decision and its underlying
analysis cannot suppor t a claim
that enha ncement is pa r t of
“accounting” under § 1292(c)(2) . . . . . . . . . 18

3.

The Federal Circuit Treatment of
“Accounting” Under § 1292(c)(2) Is
Ripe for Clarification by this Court . . . . . . 19

vi
Table of Contents
Page
B. The Federal Circuit’s Treatment of PostJudgment Monetary Awards Has a Number
of Problematic Policy Implications . . . . . . . . . . . 19
1.

The Federal Circuit’s Treatment
of “Accounting” Under § 1292(c)(2)
Risks Piecemeal Appeals of a Single
Dispute . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

2.

T he Cu r r ent T re at ment of t he
Enhancement Det er mination
Undermines the District Court and
Par ties’ Intention on “Finality”
for Purposes of Appeal  . . . . . . . . . . . . . . . . 20

THIS COURT SHOULD EXERCISE ITS
SUPERVISORY POWERS TO STOP THE
ALARMING TREND IN THE FEDERAL
CIRCUIT OF SETTING A SIDE JURY
VERDICTS BASED ON THAT CIRCUIT’S
V IEW OF HOW THE JURY SHOULD
WEIGH CONFLICTING EVIDENCE  . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
THE FEDER A L CIRCUIT, DECIDED
FEBRUARY 28, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — MEMORANDUM AND ORDER
OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
FILED NOVEMBER 17, 2017 . . . . . . . . . . . . . . . . . 23a
APPENDIX C — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED AUGUST 2, 2017 . 51a
APPENDIX D — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JUNE 21, 2017 . . 62a
A PPENDI X E — MEMOR A NDUM A ND
OR DER OF T H E U N I T ED S TAT E S
DISTRICT COURT FOR THE DISTRICT OF
MASSACHUSETTS FILED APRIL 24, 2017 . . . 67a
A PPENDI X F — J U DGMEN T OF THE
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MASSACHUSETTS
FILED DECEMBER 19, 2016 . . . . . . . . . . . . . . . . . 82a
APPENDIX G — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED MAY 2, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . 83a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
ABT Sys., LLC v. Emerson Elec. Co.,
797 F.3d 1350 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . 25
ACCO Brands, Inc. v. ABA Locks Mfr. Co.,
501 F.3d 1307 (Fed. Cir. 2007) . . . . . . . . . . . . . . .  25-26
Alloyd Gen. Corp. v. Bldg. Leasing Corp.,
361 F.2d 359 (1st Cir. 1966)  . . . . . . . . . . . . . . . . . . . . 21
Aro Mfg. Co. v. Convertible Top Replacement Co.,
377 U.S. 476 (1964)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Bankers Trust Co. v. Mallis,
435 U.S. 381 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Beacon Theatres, Inc. v. Westover,
359 U.S. 500 (1959)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Bowles v. Russell,
551 U.S. 205 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Brigham and Women’s Hospital, Inc. v.
Perrigo Co.,
No. 2017-1950, ECF No. 69
(Fed. Cir. Apr. 19, 2018) . . . . . . . . . . . . . . . . . . . . . 9, 11
Budinich v. Becton Dickinson & Co.,
486 U.S. 196 (1988) . . . . . . . . . . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
Casey v. Albertson’s Inc.,
362 F.3d 1254 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . 21
DePascale v. Sylvania Elec. Prods.,
510 Fed. App’x 77 (2d Cir. 2013)  . . . . . . . . . . . . . . . . 24
Devona v. Zeitels,
766 F. App’x 946 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . 25
Ellender v. Schweiker,
781 F.2d 314 (2d Cir. 1986) . . . . . . . . . . . . . . . . . . . . . 21
Fogerty v. Fantasy, Inc.,
510 U.S. 517 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Georgia-Pacific Corp. v. U.S. Plywood Corp.,
318 F. Supp. 1116 (S.D.N.Y. 1970)  . . . . . . . . . . . . . . .  17
Guggenheim Capital, LLC v. Birnbaum,
722 F.3d 444 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . 21
Halo Elecs., Inc. v. Pulse Elecs., Inc.,
136 S. Ct. 1923 (2016)  . . . . . . . . . . . . . . . . .  5, 12, 14, 17
Honeywell Int’l , Inc. v.
Hamilton Sundstrand Corp.,
370 F.3d 1131 (Fed. Cir. 2004) . . . . . . . . . . . . . . . . . . 21
i4i Ltd. P’ship v. Microsoft Corp.,
5 9 8 F. 3 d 8 31 ( Fe d . C i r. 2 010), af f ’d ,
131 S. Ct. 2238 (2011). . . . . . . . . . . . . . . . . . . . . . . . . . 15

x
Cited Authorities
Page
Imperium IP Holdings (Cayman), Ltd. v.
Samsung Elecs. Co.,
757 Fed. App’x 974 (Fed. Cir. 2019) . . . . . . . . . . . . . . 25
Johansen v. Combustion Eng’g, Inc.,
170 F.3d 1320 (11th Cir. 1999)  . . . . . . . . . . . . . . . . . . 27
Majorette Toys (U.S.) Inc. v. Darda, Inc. U.S.A.,
798 F.2d 1390 (Fed. Cir. 1986) . . . . . . . . . . . .  17, 18, 19
Octane Fitness, LLC v.
Icon Health & Fitness, Inc.,
572 U.S. 545 (2014)  . . . . . . . . . . . . . . . . . . . . . 12, 14, 15
Pall Corp. v. Micron Separations, Inc.,
66 F.3d 1211 (Fed. Cir. 1995) . . . . . . . . . . . . . . . . . . . 23
Pandrol USA, LP v. Airboss Ry. Prods., Inc.,
320 F.3d 1354 (Fed. Cir. 2003) . . . . . . . . . . . . . . .  20-21
Parklane Hosiery Co. v. Shore,
439 U.S. 322 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
PODS, Inc. v. Porta Stor,
484 F.3d 1359 (Fed. Cir. 2007) . . . . . . . . . . . . . . . . . . 18
Portis v. First Nat’l Bank,
34 F.3d 325 (5th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 24
Powell v. Home Depot U.S.A., Inc.,
663 F.3d 1221 (Fed. Cir. 2011) . . . . . . . . . . . . . . . . . .  17

xi
Cited Authorities
Page
Pyle Nat. Co. v. Lewin,
92 F.2d 628 (7th Cir. 1937) . . . . . . . . . . . . . . . . . . . . . 16
Raniere v. Microsoft Corp.,
887 F.3d 1298 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . 14
Ray Haluch Gravel Co. v. Cent. Pension
Fund of Int’l Union of Operating Eng’rs &
Participating Emp’rs,
571 U.S. 177 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Read Corp. v. Portec, Inc.,
970 F.2d 816 (Fed. Cir. 1992) . . . . . . . . . . . . . . . .  15, 17
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Robert Bosch, LLC v. Pylon Mfg. Corp.,
719 F.3d 1305 (Fed. Cir. 2013) . . . . . . . . . . . . . 6, 18, 19
Smith v. Garlock Equip. Co.,
658 Fed. App’x 1017 (Fed. Cir. 2016) . . . . . . . . . . . . . 25
Special Devices, Inc. v. OEA, Inc.,
269 F.3d 1340 (Fed. Cir. 2001) . . . . . . . . . . . . . . . . . . 19
Spindelfabrik Suessen-Schurr Stahlecker
& Grill GmbH v. Schubert & Salzer
Maschinenfabrik, AG,
829 F.2d 1075 (Fed. Cir. 1987) . . . . . . . . . . . . . . . . . . 15

xii
Cited Authorities
Page
Tennant v. Peoria & Pekin Union Ry. Co.,
321 U.S. 29 (1944)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Trs. of Boston Univ. v. Everlight Elecs. Co.,
896 F.3d 1357 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . 25
Vaughn v. Mobil Oil Exploration & Producing
Southeast, Inc.,
891 F.2d 1195 (5th Cir. 1990) . . . . . . . . . . . . . . . . . . . 21
Vona v. Cty. of Niagara,
119 F.3d 201 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 21
Wisconsin Alumni Research Found. v.
Apple Inc.,
905 F.3d 1341 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . 25
Statutes and Other Authorities
U.S. Constitution, Amendment VII . . . . . . . . . . . . 2, 7, 27
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1292(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1295 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 11
28 U.S.C. § 1295(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

xiii
Cited Authorities
Page
35 U.S.C. § 284 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
35 U.S.C. § 285 . . . . . . . . . . . . . . . . . . . . . . . . .  3, 13, 14, 16
Fed. R. App. P. 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Fed. R. Civ. P. 50 . . . . . . . . . . . . . . . . . . . . . . . . 1, 11, 22, 23
Fed. R. Civ. P. 59 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 60 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
U.S. Patent No. 5,229,137  . . . . . . . . . . . . . . . . . . . . . 4, 8, 9
7 Donald S. Chisum, Chisum on Patents § 20.03(4)
(2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
Dona ld S . Ch isu m, Rem edies fo r Pat ent
Infringement, 13 AIPLA Q.J. 380 (1985)  . . . . . . . . 13
Hon. K at h leen O’Ma l ley, Tr i al b y Jur y:
W h y It Wo r k s a n d W h y It Ma t t e r s ,
68 Am. U. L. Rev. 1095 (2019) . . . . . . . . . . . . . . . . . . 25
S. Rep. No. 69-1319 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Brigham and Women’s Hospital, Inc. and
Investors Bio-Tech, L.P. respectfully petition for a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Federal Circuit in this case.
OPINIONS BELOW
The merits opinion of the Federal Circuit is reported
at 761 Fed. App’x 995 and reprinted at App. 1a-22a, infra.
The order of the court of appeals denying rehearing is not
reported and is reprinted at App. 83a-84a. Single judge
and motions panel jurisdictional opinions of the Federal
Circuit are unreported and are reprinted at App. 62a-66a,
51a-61a.
The Rule 50(b) opinion of the district court is reported
at 280 F. Supp. 3d 192 and reprinted at App. 23a-50a. The
district court’s untimeliness opinion is reported at 251
F. Supp. 3d 285 and reprinted at App. 67a-81a. The final
judgment is not reported and is reprinted at App. 82a.
JURISDICTION
The Federal Circuit issued its opinion on February
28, 2019. It denied rehearing and rehearing en banc on
May 2, 2019. This Court has jurisdiction under 28 U.S.C.
§ 1254(1). This Court granted Petitioners’ motion for an
extension of time. See Order, Case No. 19A75 (July 19,
2019).

2
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
U.S. Constitution, Amendment VII, provides:
In suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and
no fact tried by a jury, shall be otherwise
reexamined in any court of the United States,
than according to the rules of the common law.
35 U.S.C. § 284 provides:
Upon finding for the claimant the court shall
award the claimant damages adequate to
compensate for the infringement, but in no
event less than a reasonable royalty for the use
made of the invention by the infringer, together
with interest and costs as fixed by the court.
When the damages are not found by a jury,
the court shall assess them. In either event the
court may increase the damages up to three
times the amount found or assessed. Increased
damages under this paragraph shall not apply
to provisional rights under section 154(d).
The court may receive expert testimony as
an aid to the determination of damages or of
what royalty would be reasonable under the
circumstances.

3
35 U.S.C. § 285 provides:
The court in exceptional cases may award
reasonable attorney fees to the prevailing
party.
28 U.S.C. § 1292(c)(2) provides:
The United States Court of Appeals for
the Federal Circuit shall have exclusive
jurisdiction—(2) of an appeal from a judgment
in a civil action for patent infringement which
would otherwise be appealable to the United
States Court of Appeals for the Federal Circuit
and is final except for an accounting.
28 U.S.C. § 1295(a)(1) provides:
The United States Court of Appeals for
the Federal Circuit shall have exclusive
jurisdiction—(1) of an appeal from a final
decision of a district court of the United States,
… in any civil action arising under, or in any
civil action in which a party has asserted a
compulsory counterclaim arising under, any
Act of Congress relating to patents or plant
variety protection.

4
INTRODUCTION
Notwithstanding a recent en banc effort, the Federal
Circuit’s struggle with final judgment has taken a new
turn. By redefining compensatory damage “accounting”
yet again, it preserved its jurisdiction in this case where
none exists. The continued adherence to this approach
interferes with a coherent final judgment process for the
successful patentee – as evidenced in this case.
At trial, the jury rendered its verdict against Perrigo
finding that it willfully infringed Brigham’s U.S. Patent
No. 5,229,137 (“Wolfe patent”), rejecting Perrigo’s
invalidity and laches defenses, and awarding $10.2 million
in damages. After requesting entry of final judgment,
Perrigo failed to file a notice of appeal or appeal-tolling
motion within 30 days of final judgment and thus lost any
right to appellate review. The Federal Circuit, however,
rejected Brigham’s motion to dismiss, and exercised
jurisdiction over Perrigo’s untimely appeal.
The Federal Circuit preserved Perrigo’s appeal
by classifying “enhancements” as a merits issue that
tolled the final judgment under 28 U.S.C. § 1295. This
required the Federal Circuit to disregard this Court’s
ruling in Budinich v. Becton Dickinson & Co., 486 U.S.
196 (1988) and the long-standing treatment of postjudgment monetary awards as collateral to the merits.
Post-judgment awards of attorney fees, costs, interests on
the judgment and punitive enhancements of the judgment
were collateral issues that did not “alter” or “moot” the
judgment or toll the appeal process. See generally 7
Donald S. Chisum, Chisum on Patents § 20.03[4] (2019);
see also Budinich, 486 U.S. at 199-200.

5
Instead of following Budinich, the Federal Circuit
relied on the narrow jurisdictional exception provided
by 28 U.S.C. § 1292(c)(2) (“§ 1292”) authorizing appeals
from judgments that are “final except for an accounting.”
This reliance was misplaced for two reasons. First, the
Federal Circuit mistakenly characterized a district court’s
post-judgment award of punitive enhancements as part of
compensatory damage “accounting” under § 1292. This
ruling cannot be reconciled with this Court’s Halo decision
that there is no compensatory role for enhancements and
thus it cannot be considered damages for the infringement
tort or part of an accounting. Halo Elecs., Inc. v. Pulse
Elecs., Inc., 136 S. Ct. 1923, 1932 (2016). It is, like an award
of attorney fees, punitive – a penalty or fine collateral to
the merits resolved post-verdict by the district court for
egregious conduct. Thus, it is governed by this Court’s
Budinich decision.
Second, the expanded definition of “accounting”
used to embrace post-judgment monetary awards such
as “enhancements” does not (and cannot) act to convert
that award from a collateral to a merits issue. This is
true because the award does not “alter” or “moot” the
merits judgment however it is labeled or classified. See
Ray Haluch Gravel Co. v. Cent. Pension Fund of Int’l
Union of Operating Eng’rs & Participating Emp’rs, 571
U.S. 177, 188 (2014) (rejecting how an issue is classified in
“favor of an approach that looks solely to the character of
the issue that remains open after the court has otherwise
ruled on the merits of the case”).
The improper exercise of jurisdiction here injects
great uncertainty in the finality of patent judgments –

6
judgments that commonly involve some post-judgment
monetary award such as enhancements or attorney fees.
Final judgments for patentees will now be subject to
confusing appellate deadlines governed by the changing
views of what constitutes an “accounting” and which
post-judgment monetary awards toll the appeal process.1
See generally Robert Bosch, LLC v. Pylon Mfg. Corp.,
719 F.3d 1305 (Fed. Cir. 2013) (en banc) (finding the
issue of willful infringement is also within the § 1292
“accounting”). The divided Bosch court’s open-ended view
on what constituted a § 1292(c)(2) “accounting” provides
future panels troubling little guidance and thereby risks
further expansion of this narrow jurisdictional exception
with wasteful piecemeal appeals.
The Court can bring both clarity and harmony back to
final judgment rules. A punitive enhancement award, like
an award of interest, costs and attorney fees, stands as
a post-judgment monetary award that is collateral to the
judgment. Because appeals of patent infringement cases
are exclusive to the Federal Circuit, only this Court can
rectify the chaos created by the decisions below.
After denying Brigham’s motion to dismiss the appeal,
the Federal Circuit disregarded the usual presumptions
and evidentiary deference that normally flow from a jury
verdict and reversed the infringement verdict. Contrary
to this Court’s long-standing mandate of restrictive
evidentiary review, the Federal Circuit’s credibility
determinations and weighing of the evidence present
1. Expanding the definition of “accounting” acts to increase
the number of immediately appealable interlocutory rulings – and
promotes piecemeal appeals.

7
a serious erosion of Seventh Amendment right to trial
by jury. It is part of a growing Federal Circuit trend
of rejecting jury verdicts for patentees – a trend that
diminishes the value of patents and motivates trial judges
to take these cases away from jurors.
Both issues are ripe for review by this Court.
STATEMENT OF THE CASE
A. The Patented Technology
Nearly three decades ago, a gastroenterologist
practicing internal medicine at the Brigham and Women’s
Hospital in Boston, Massachusetts performed a series
of clinical studies to explore the interactions between
two acid reducing medicines – fast-acting antacids and
longer duration histamine antagonists. At the time,
these two medicines were separately dosed for acidrelated stomach disorders as it was believed that antacids
taken together with the histamine antagonists would
interfere and deactivate the histamine antagonists and
reduce their therapeutic value. Dr. Wolfe, the Brigham
Gastroenterologist, sought to investigate this interaction.
In the treatment of episodic heartburn, Brigham
and Dr. Wolfe’s clinicals demonstrated that there was no
inhibition of histamine antagonist by the antacids – even
when dosed simultaneously. In fact, the combined dosing
resulted in an unexpectedly prolonged duration of relief
– beyond what the histamine antagonist would provide
when dosed by itself. The surprising result achieved by
Dr. Wolfe’s new combination therapy was patented and a
licensed version of the medicine approved by the FDA for

8
over-the-counter sales. The “Pepcid Complete”-branded
treatment was sold by a joint venture between Johnson
& Johnson, Co. and Merck, Inc. starting two decades ago
and continues today.
In 2008, Perrigo launched Famotidine Complete, a
generic version with the same active ingredients in the
same amounts as Pepcid Complete. It was approved by the
FDA as “bioequivalent” to the branded Pepcid Complete
through an Abbreviated New Drug Application under the
Drug Price Competition and Patent Term Restoration Act,
informally known as the Hatch-Waxman Act. Brigham
sued Perrigo in 2013 for infringing the Wolfe patent.
B. The Jury Trial
At trial, Brigham relied on its test data submitted
to the FDA in gaining market approval for Pepcid
Complete. Because this FDA testing data was generated
using the same active ingredients and amounts found
in the Perrigo accused formulation, this test data was
powerful – but circumstantial – evidence that Perrigo’s
accused formulation provided the same clinical response
as Pepcid Complete in terms of patient relief from episodic
heartburn.
The core infringement dispute centered on the patent
claim term “immediate” relief from heartburn pain –
defined by the court as requiring “onset of relief in about
5 to 10 minutes” from dosing. The jury heard evidence
that the claimed “immediate relief” of the Wolfe patent
was a clinical attribute of Perrigo’s accused formulation,
including FDA testing data on (1) esophageal pH v. time
measurements and (2) pain relief studies with supporting

9
testimony by Dr. Wolfe – Brigham’s infringement expert.
Heartburn is caused by stomach acid reflux (observed
by a drop in pH) irritating the esophagus and thereby
triggering inflammation. The evidence at trial showed
that the accused formulation caused a jump in esophageal
pH (i.e., lower acidity) within two minutes of dosing, just
as with antacid. FDA pain relief studies demonstrated
“adequate relief” within 15 minutes of dosing. Taken
together, this is compelling evidence of “immediate” onset
of relief – evidence sufficient to support the jury verdict of
infringement. Fed. Cir. J.A. 6978, 6980-6981, 6982-7008,
7018, 7042-7045, 7063, 7065-7070, 7075, 7720-7721, 7298,
7302, 7554, 7847-7848, 8353-8354; see also Corrected Br.
for Plaintiffs-Cross-Appellants at 29-39, Brigham and
Women’s Hospital, Inc. v. Perrigo Co., No. 2017-1950,
ECF No. 69 (Fed. Cir. Apr. 19, 2018).
Perrigo never contended that its accused product did
not provide “immediate” relief but challenged Brigham’s
evidence as circumstantial. Contending that Brigham was
required to directly test Perrigo’s product and not rely
on its own FDA clinicals, Perrigo argued at trial that the
evidence of “immediate” relief was insufficient.
Perrigo concurrently argued that the Wolfe patent
was invalid contending that all antacids provide immediate
relief. In support of its invalidity position, Perrigo’s expert,
Dr. Tornay, testified that “immediate” onset of relief by
acid neutralization is an inherent property of antacids:
Q. How do antacids work to treat heartburn?
A: They work, as we’ve heard, by neutralizing
the stomach acid. That’s an inherent quality

10
or characteristic of antacids: they neutralize
acid.
Q. And how does neutralization of acid treat
the heartburn?
A. It treats it by decreasing the amount of acid
present and therefore decreases the stimulus
to the discomfort.
Fed. Cir. J.A. 8194 (emphasis added).
Perrigo’s expert confirmed before the jury that the
antacids at issue provide the “immediate” relief:
Q. And how long do the antacids normally work
to treat heartburn.
A. They work, the onset is what we would call
immediate.
Fed. Cir. J.A. 8196 (emphasis added).
The jury concluded that Perrigo’s Famotidine
Complete willfully infringed.
C. Verdict and Post-Trial Proceedings
In December 2016, an eight-person jury returned a
verdict for Brigham and final judgment against Perrigo
was entered on December 19, 2016. As of January 18,
2017 (30 days after entry of judgment), neither party had
filed a notice of appeal or an appeal-tolling motion. The
merits dispute was thus over – and appeal foreclosed.

11
See Fed. R. App. P. 4(a)(1)(A); Bowles v. Russell, 551 U.S.
205, 207 (2007). Nevertheless, Perrigo filed post-trial
motions under Rules 50 and 59 on January 24, 2017 per
a schedule extension – an extension, however, precluded
by the Federal Rules. Fed. R. Civ. P. 6(b)(2).
On February 17, 2017, Perrigo filed an untimely
Notice of Appeal (App. No. 2017-1950) and moved the
district court for an ex post extension of time. Perrigo
also challenged the finality of the December 19, 2016 Final
Judgment.
On April 24, 2017 the district court rejected Perrigo’s
motion for an extension of time and ruled that the
December 19, 2016 Judgment was “final” under § 1292. See
App. 69a-77a, 82a. The district court also denied Perrigo’s
post-trial motions under Rules 50 and 59 as untimely, and
Brigham’s motions against Perrigo for an “exceptional”
case and “enhancements.” See App. 77a-81a. On May 11,
2017, Perrigo filed a second Notice of Appeal (App. No.
2017-2021). Shortly thereafter on May 19, 2017, Perrigo
filed a second round of post-trial motions—motions
essentially identical to its previous untimely motions
denied by the district court.
Brigham’s motions to dismiss Appeal No. 2017-1950
and to limit the issues in Appeal No. 2017-2021 were
denied on June 21, 2017. The Federal Circuit motions
panel denied Brigham’s motion for reconsideration,
reversed the district court’s April Order, and ruled that
the December 19, 2016 Judgment was not “final” under
§ 1295 because enhancements was a merits issue that
had not been resolved by the district court. App. 51a-61.
The Federal Circuit deactivated the appeals pending the

12
district court’s resolution of Perrigo’s second round of
post-trial motions. App.62a-66a.
On November 17, 2017, the district court granted
judgment as a matter of law (“JMOL”) against Brigham
on its infringement claim; rejecting Brigham’s evidence
demonst rat i ng that Per r igo’s product prov ided
“immediate” relief as insufficient to support the jury
verdict. App. 23a-50a. The Federal Circuit affirmed
and denied Brigham’s request for panel and/or en banc
rehearing. App. 83a-84a.
In finding that Brigham’s evidence on “immediate”
relief was insufficient as a matter of law, the Federal
Circuit independently weighed the FDA test data,
declined to consider the admissions of Perrigo’s expert and
challenged the credibility of Dr. Wolfe’s testimony, stating
it was “uncorroborated, conclusory and interested.” App.
21a.
REASONS FOR GRANTING THE PETITION
FOR PURPOSES OF FINAL JUDGMENT,
PUNITIVE ENHANCEMENTS SHOULD
REMAIN WITH ALL OTHER POST-JUDGMENT
MONETARY AWARDS – AS COLLATERAL
RULINGS BY THE COURT
A. Exceptional Case and Damage Multiplier for
Enhancements are Collateral Issues that Cannot
“Alter” or “Moot” Final Judgment on the Merits
This Court’s rulings in Budinich, Halo, and Octane
Fitness mandate a dismissal of Perrigo’s notice of

13
appeal filed more than 30 days after final judgment.
The Federal Circuit ruling indefinitely tolling Perrigo’s
appeal deadline was improper and creates an unsettling
and chaotic process for triggering appellate review in a
patent dispute.
Perrigo’s time to appeal was not tolled. A fter
judgment, the court in an infringement suit may award
collateral monetary awards in the form of interest and
costs, increased damages (i.e., enhancements), and/or
attorney fees. See 7 Chisum on Patents § 20.03[4]; see also
Donald S. Chisum, Remedies for Patent Infringement,
13 AIPLA Q.J. 380 (1985). The grant of a post-judgment
monetary award is recognized as a collateral ruling to
the merits judgment. See Budinich, 486 U.S. at 200-01.
Enhanced damages under 35 U.S.C. § 284 and attorney
fees under 35 U.S.C. § 285 are both issues that are
collateral to the merits in a patent dispute. Pending
collateral issues do not toll the deadline for an appeal.
See id. at 202-03.
In Budinich, the district court issued an order
awarding attorney fees authorized by statute, after a
merits ruling resolving the dispute. Within 30 days of
the fees award, but long after the merits ruling, plaintiff
appealed all issues. This Court ruled that there was no
appellate jurisdiction on the merits because the fees award
was “collateral” to the merits and more than 30 days had
passed since the final judgment on the merits.
A collateral court ruling is one that cannot “alter
the [merits] order or moot or revise decisions embodied
in the [merits] order.” Id. at 199. An award of attorney
fees to the prevailing party in litigation, while monetary,

14
is collateral to the merits because it “does not remedy
the injury giving rise to the action, and indeed is often
available to the party defending against the action.” Id.
at 200 (emphasis added).
As noted in Halo, enhancements similarly does not
provide a remedy for the injury of infringement – it
has no compensatory objectives, but is instead punitive,
corresponding to an award of attorney fees. See Halo, 136
S. Ct. at 1929, 1932. Enhancements, like a fees award, is a
punitive collateral court ruling that is not a true “damage”
to the infringement tort and will not toll the time for filing
a Notice of Appeal. See Budinich, 486 U.S. at 202-03.
The award of attorney fees in a patent dispute is
authorized by 35 U.S.C. § 285 premised on a district
court finding that a case is “exceptional.” Octane Fitness,
LLC v. Icon Health & Fitness, Inc., 572 U.S. 545, 54849 (2014). Following Budinich, the Federal Circuit has
correctly recognized that an attorney fees award based
on an exceptional case determination is “collateral” to
the merits, because it cannot “alter the [merits] order or
moot or revise decisions embodied in the [merits] order.”
Raniere v. Microsoft Corp., 887 F.3d 1298, 1308 (Fed. Cir.
2018) (citing Budinich, 486 U.S. at 199).
Three features of exceptional case jurisprudence
link it to the enhancement multiplier of 35 U.S.C. § 285.
First, an exceptional case with an award of attorney fees
is also purposely punitive in nature. See Octane Fitness,
572 U.S. at 554 n.6.
Second, exceptional case and enhancement awards
involve common foundations in evidence and are often

15
considered and granted together to the patentee where
willful infringement is found – the mandated predicate
to an enhancement. See i4i Ltd. P’ship v. Microsoft
Corp., 598 F.3d 831, 858-59 (Fed. Cir. 2010), aff’d, 131
S. Ct. 2238 (2011). District courts determine whether a
case is “exceptional” by considering the “frivolousness,
motivation, objective unreasonableness” of the losing
party’s position. Octane Fitness, 572 U.S. at 554 n.6
(quoting Fogerty v. Fantasy, Inc., 510 U.S. 517, 534 (1994)).
Or, more generally, the weakness of its litigation position.
For enhancements, the district court considers, inter alia,
the infringer’s behavior as a party to the litigation, the
closeness of the case and the infringer’s motivation for
harm. Read Corp. v. Portec, Inc., 970 F.2d 816, 827-28
(Fed. Cir. 1992).
Third, both exceptional case and enhancement awards
are solely the province of the district court post-verdict.
In fact, much of the evidence for both issues is excluded
from the jury during trial (e.g., litigation misconduct) and
the district court makes its supplemental monetary award
decisions post-trial. A finding of willful infringement not
only allows for the court’s consideration of enhancements,
in many instances it becomes the foundation for both
enhancements and an exceptional case ruling with an
award of attorney fees. A case involving a willfully copied
invention is often “weak” and “stands out” – and thus
“exceptional.” Spindelfabrik Suessen-Schurr Stahlecker
& Grill GmbH v. Schubert & Salzer Maschinenfabrik AG,
829 F.2d 1075, 1085 (Fed. Cir. 1987), cert. denied, 484 U.S.
1063 (1988) (“Where a finding of willful and deliberate
infringement and a collateral finding of exceptional
circumstances are premised on the same basis, this
court has found no abuse of discretion in awarding both
increased damages and attorney fees.”)

16
The district court grant of enhanced damages is not a
true damage but a penalty or fine for a litigant’s misconduct
and designed to deter that misconduct in the future. Halo,
136 S. Ct. at 1932 (“Awards of enhanced damages under
the Patent Act over the past 180 years establish that they
are not to be meted out in a typical infringement case, but
are instead designed as a ‘punitive’ or ‘vindictive’ sanction
for egregious infringement behavior.”); see Aro Mfg. Co.
v. Convertible Top Replacement Co., 377 U.S. 476, 50607 (1964); see also 7 Chisum on Patents § 20.03[4][b][iii].
In practice, the post-judgment-award of enhancements
is not even considered absent a merits finding of willful
infringement and cannot be considered until compensatory
damages is determined. Pyle Nat. Co. v. Lewin, 92 F.2d
628, 631-32 (7th Cir. 1937).
1.

The Federal Circuit Determination That
Enhancements is Accounting Was Flawed

In this case, the Federal Circuit recognized the
conflict its ruling creates with Budinich and attempted
to distinguish it by noting that compensatory “damages”
and “enhancements” are both found in 35 U.S.C. § 284,
while exceptional case with attorney fees (governed by
Budinich) is found in 35 U.S.C. § 285. App. 56a. This logic
fails as “interest and costs” are also within § 284 yet both
interest and costs are recognized as separate from the
accounting and collateral to the merits. Moreover, under
the Patent Act, both attorney fees and enhancements
fall generally within “Chapter 29-Remedies” along with
compensatory damages and injunctive relief.
The Federal Circuit further ruled that judgment on
compensatory damages would be “alter[ed] or amend[ed]”

17
by a later ruling on enhancements. App. 56a. This is
incorrect. While the total monetary award ultimately due
to the patentee will increase, exactly as if an attorney
fee award had been granted, the compensatory damages
for the infringement injury on the merits in the judgment
is unchanged. Halo, 136 S. Ct. at 1932 (enhancement
is “designed as a ‘punitive’ or ‘vindictive’ sanction”).
Collateral post-judgment monetary awards—costs,
interests, attorney fees and enhancements—do not alter
the merit rulings that form the final judgment.
Compensatory damages and enhancements in patent
law are not inextricably intertwined. Each addresses a
very distinct statutory objective and is proven with very
different evidence. Compensatory patent infringement
damage – such as a reasonable royalty – is a jury issue
that involves a classic accounting analysis to compensate
for the injury resulting from the infringement tort.
It is fundamentally different from the evidence of
willful, egregious misconduct required to support an
enhancements award by the judge. Compare Powell v.
Home Depot U.S.A., Inc., 663 F.3d 1221, 1239 n.3 (Fed.
Cir. 2011) (citing Georgia-Pacific Corp. v. U.S. Plywood
Corp., 318 F. Supp. 1116, 1120 (S.D.N.Y. 1970)) with Read
Corp., 970 F.2d at 827-28.
The more critical comparison is between enhancements
and attorney fees. These issues often involve the same
evidence and analysis and as such are often inextricably
intertwined – with both resolved by the district court at
the same time. Indeed, the PODS case on enhancements
relied on by the Federal Circuit (App. 56a) – itself relies on,
two “attorney fee” cases for authority: Majorette Toys and

18
Budinich2 . Budinich’s clear determination that attorney
fees are collateral to the merits would logically govern
enhancements because of these overlapping assessments.
2.

The Federal Circuit’s 2013 Bosch en banc
decision and its underlying analysis cannot
support a claim that enhancement is part of
“accounting” under § 1292(c)(2)

The error that plagues the decision below stems from
the Federal Circuit’s 2013 en banc decision in Bosch. It
is time for this Court to correct the Federal Circuit’s
decision in Bosch.
The en banc Bosch majority construed “accounting” to
embrace not only patent compensatory damages, but also
the determination of whether defendant’s infringement
was willful. The en banc decision in Bosch – in which the
Federal Circuit was split 7 to 5 – fails to recognize that
exceptions to the final judgment rule should be narrowly
construed. The Bosch Court’s expansion of “accounting”
in § 1292 beyond compensatory damages greatly
increases the risk of piecemeal appeals, undermines
judicial efficiency and compounds the delay in our courts.
Moreover, Congress never intended that an “accounting”
would or could include a district court’s post-judgment
determination of enhancements. S. Rep. No. 69-1319, at
1 (1927). This Court should set aside both Bosch and the
erroneous decision below.
2. Majorette Toys (U.S.) Inc. v. Darda, Inc. U.S.A., 798 F.2d
1390, 1392 (Fed. Cir. 1986); see also PODS, Inc. v. Porta Stor, 484
F.3d 1359, 1365 n.4 (Fed. Cir. 2007). PODS is the sole cited Federal
Circuit authority that discusses enhancements in the context of
“accounting” viz. § 1292.

19
3.

The Federal Circuit Treatment of “Accounting”
Under § 1292(c)(2) Is Ripe for Clarification by
this Court

This case provides the ideal vehicle to bring clarity
to an important jurisdictional issue that has been clouded
by several Federal Circuit decisions including Bosch. For
example, in Majorette Toys, the panel found attorney
fees “part of the accounting” in § 1292. Majorette Toys,
798 F.2d at 1392. Later, the Federal Circuit ruled that
the resolution of attorney fees was not part of § 1292
accounting. Special Devices, Inc. v. OEA, Inc., 269 F.3d
1340, 1343 n.2 (Fed. Cir. 2001).
The need for intervention by this Court is particularly
acute given that § 1292 is specific to patent infringement
and therefore does not arise in other circuit courts.
The Federal Circuit’s en banc decision in Bosch and its
continued adherence to that decision demonstrate that the
Federal Circuit’s error will continue to be perpetuated
until this Court addresses this important issue.
B. The Federal Circuit’s Treatment of Post-Judgment
Monetary Awards Has a Number of Problematic
Policy Implications.
The Federal Circuit’s current interpretation allows
the mere possibility of an enhancement motion to disrupt
the conclusion of patent disputes. There is no authority
to support the mere possibility that a motion seeking an
enhancement, following a full jury trial on liability and
damages, automatically tolls the matter and indefinitely
prevents a judgment from being final. Because there is
no statutory framework or deadline for enhancement

20
motion practice under § 284, it should have no bearing on
the appeal timing.
1.

The Federal Circuit’s Treatment of “Accounting”
Under § 1292(c)(2) Risks Piecemeal Appeals of
a Single Dispute

The Federal Circuit’s interpretation of § 1292
accounting covers multiple discrete court determinations,
including “damages,” “profits,” “willful infringement,”
and now “enhancements.” Under the current framework,
each unresolved accounting issue will permit interlocutory
appeal of previously resolved non-accounting issues. For
example, if patent liability is resolved for the patentee, the
case can be appealed; if affirmed, a decision on damages
(but not willful infringement) would trigger a second
appeal; if affirmed, a third appeal would be allowed on
the decision on willful infringement; if affirmed, a fourth
appeal would follow on the issue of enhancement. And
so on. This lack of certainty and finality was not the
intent of Congress and cannot be justified in the face of
longstanding policies against piecemeal appeals.
The far better rule is to limit accounting to damages –
with enhancements, fees, costs, and interest all considered
collateral and appealed together after any merits appeal.
2.

The Current Treatment of the Enhancement
Determination Undermines the District Court
and Parties’ Intention on “Finality” for
Purposes of Appeal

The district court’s and parties’ intent as to the
finality of a judgment is dispositive. See Pandrol USA,
LP v. Airboss Ry. Prods., Inc., 320 F.3d 1354, 1362-1363

21
(Fed. Cir. 2003). “The intention of the judge is crucial in
determining finality.” Vaughn v. Mobil Oil Exploration &
Producing Southeast, Inc., 891 F.2d 1195, 1197 (5th Cir.
1990); see also Bankers Trust Co. v. Mallis, 435 U.S. 381,
387-88 (1978) (“Here, the District Court clearly evidenced
its intent that the opinion and order from which an appeal
was taken would represent the final decision in the case.”);
Honeywell Int’l , Inc. v. Hamilton Sundstrand Corp., 370
F.3d 1131, 1139 n.6 (Fed. Cir. 2004); Pandrol, 320 F.3d at
1362-63; Alloyd Gen. Corp. v. Bldg. Leasing Corp., 361
F.2d 359, 362-63 (1st Cir. 1966).
Perrigo requested a final judgment and the district
court’s determination to mark this case as “closed” is
a strong indication of its intent that the judgment is
final, and the parties should treat the judgment as such.
Guggenheim Capital, LLC v. Birnbaum, 722 F.3d 444,
449 (2d Cir. 2013) (“[A] decision is final when ‘the court
clearly intends to close the case...’”) (quoting Ellender v.
Schweiker, 781 F.2d 314, 318 (2d Cir. 1986)); Vona v. Cty.
of Niagara, 119 F.3d 201, 205-06 (2d Cir. 1997).
T he Federa l Ci rcu it ’s cu r rent t reat ment of
“accounting” and enhancement, however, opens the door
for precisely the mischief that has occurred here. It
enabled Perrigo’s belated objections to finality as a “sword
to reopen a case” that all parties agreed was subject to a
“final, separate judgment.” Casey v. Albertson’s Inc., 362
F.3d 1254, 1259 (9th Cir. 2004) (citing the filing of a Rule
60 post-trial motion as an indication of party’s belief that
a final judgment was entered).
The law should not permit the option of reopening a
final judgment when it suits a parties’ subsequent needs
– as currently allowed under the decision below.

22
THIS COURT SHOULD EXERCISE ITS
SUPERVISORY POWERS TO STOP THE
ALARMING TREND IN THE FEDERAL CIRCUIT
OF SETTING ASIDE JURY VERDICTS BASED
ON THAT CIRCUIT’S VIEW OF HOW THE JURY
SHOULD WEIGH CONFLICTING EVIDENCE
A circuit court’s erroneous application of the standard
for a renewed motion for judgment as a matter of law under
Fed. R. Civ. P. 50(b) would not typically merit review by
this Court. Here, however, the Federal Circuit’s error is
egregious and reflects an alarming trend of judges within
the Federal Circuit setting aside jury verdicts based on
credibility determinations and the weighing of evidence.
This Court should exercise its supervisory power over
the Federal Circuit to bring this practice into check. S.
Ct. R. 10(a).
Ample evidence supported the jury verdict in this
case. In this patent infringement action, the issue for the
jury was whether Perrigo’s drug produced immediate
and sustained relief from episodic heartburn (which
Brigham’s patent defines as “start[ing] within about 5-10
minutes following ingestion”). App. 5a (emphasis added).
Because Perrigo was seeking FDA approval of a generic
drug, Perrigo’s FDA approval of its drug (marketed as
Famotidine Complete) was based on the clinical data in
support of Brigham’s FDA New Drug Application for
Pepcid Complete. One study supporting that application
showed a rapid rise in pH levels (i.e., decrease in acidity)
in patients within two minutes of taking the combination
of famotidine and antacid. App. 6a (citing Fed. Cir. J.A.
7044). The average pH level increased by a value of 1.5
during the first two minutes – making the gastric fluids
in the patients’ esophagus 32 times less acidic within

23
120 seconds. 3 Another study supporting the New Drug
Application showed that 33.7% of patients in the study
received adequate relief within 15 minutes. App. 8a
(citing Fed. Cir. J.A. 6999). Faced with evidence that onethird of the patients found their pain to be adequately
addressed within 15 minutes, the jury could reasonably
draw an inference that the onset of immediate relief
(i.e., a noticeable decrease in pain) was experienced by
patients within about 10 minutes. See Pall Corp. v. Micron
Separations, Inc., 66 F.3d 1211, 1217 (Fed. Cir. 1995) (“The
use of the word ‘about,’ avoids a strict numerical boundary
to the specified parameter.”).
To confirm his trial opinions, Brigham’s expert (the
patent inventor) personally tested Perrigo’s product and
experienced relief from heartburn within 10 minutes.
Fed. Cir. J.A. 7760. Most importantly, Perrigo’s own
expert confirmed the immediate onset of relief provided
by antacids. Fed. J.A. 8194, 8196. This is the precise
combination of active ingredients in both Brigham’s and
Perrigo’s products. At trial, Perrigo did not assert that
its product fails to provide immediate relief.
This Court has reiterated that Rule 50(b) motions
require a lower court to “draw all reasonable inferences
in favor of the nonmoving party, and it may not make
credibility determinations or weigh the evidence.”
3. Noting that the average of pH levels for the entire study
group did not fall below the pH level that the study defined as “acid
reflux,” the Federal Circuit discounted this study and the expert
testimony relating to this study. All of the study participants,
however, had a protracted history of food induced heartburn and
were fed hamburgers, french fries and milkshakes in order to
induce heartburn prior to dosing. Fed. Cir. J.A. 7042.

24
Reeves v. Sanderson Plumbing Prods., 530 U.S. 133,
150 (2000). Here, the Federal Circuit blatantly made a
credibility determination, concluding that the inventor’s
testimony was insufficient to sustain the jury’s verdict,
in part, because he was an “interested” party. App. 21a.
Similarly, its characterization of the inventor’s testimony
as “uncorroborated” stands as weighing of the testimony.
Id. As other circuits have expressly recognized, a single
witness’ testimony is sufficient to defeat a Rule 50(b)
motion even if there is no corroboration. See DePascale
v. Sylvania Elec. Prods., 510 Fed. App’x 77, 80-81 (2d
Cir. 2013); Portis v. First Nat’l Bank, 34 F.3d 325, 329
n.10 (5th Cir. 1994). Neither Rule 50(b) nor this Court’s
precedent impose a requirement that a witness’s testimony
must be corroborated. The Federal Circuit’s very
statement that the persuasive value of this testimony
would have been enhanced by corroboration admits to a
weighing of the evidence. App. 21a. Finally, the Federal
Circuit’s characterization of the inventor’s testimony as
“conclusory” is simply a façade to hide its weighing of his
testimony. The inventor explained in detail the studies
relied upon by both Brigham and Perrigo to obtain
FDA approval and how those studies amply support his
conclusions.
The Federal Circuit’s willingness to wholly disregard
the testimony of Perrigo’s own expert that the two active
ingredients in the products of Brigham and Perrigo (which
are identical for both companies) provides “immediate and
sustained relief” demonstrates that it was second-guessing
the jury’s weighing of the evidence. The admissions of
Perrigo’s experts – alone – are sufficient support for the
verdict. Reeves, 530 U.S. at 150-151.

25
The recent cases in which the Federal Circuit has
disregarded this Court’s precedent and set aside valid jury
verdicts are a disturbing development.4 As one Federal
4. As a result, the Federal Circuit has been “criticized for
weakening the jury function and causing dysfunction in the system
in the process.” Hon. Kathleen O’Malley, Trial by Jury: Why It
Works and Why It Matters, 68 Am. U. L. Rev. 1095, 1106 (2019).
Examples of the Federal Circuit using Rule 50 to weaken the
historic role of juries as the finders of fact are abundant. See, e.g.,
Devona v. Zeitels, 766 F. App’x 946, 961 (Fed. Cir. 2019) (Clevenger,
J., dissenting) (disagreeing with affirmance of JMOL in dispute
involving ownership of invention between partners given that
opposing testimony created classic “credibility contest” that must
be resolved by the jury) (unpublished); see generally Imperium IP
Holdings (Cayman), Ltd. v. Samsung Elecs. Co., 757 Fed. App’x
974 (Fed. Cir. 2019) (reversing district court’s denial of JMOL;
district court concluded that patent should not be invalidated
based on patent claims being anticipated by a prior published
patent given conflicting testimony of experts as to applicability and
adequacy of information in prior patent) (unpublished), petition
for cert. filed, No. 19-101; Wisconsin Alumni Research Found. v.
Apple Inc., 905 F.3d 1341, 1345 (Fed. Cir. 2018), petition for cert.
filed, No. 18-1508; Trs. of Boston Univ. v. Everlight Elecs. Co.,
896 F.3d 1357, 1362 (Fed. Cir. 2018) (in reversing district court’s
denial of JMOL, Federal Circuit concluded jury verdict was not
supported by substantial evidence because circuit court believed
contentions of plaintiff’s expert were “difficult to credit”); Smith
v. Garlock Equip. Co., 658 Fed. App’x 1017, 1026 (Fed. Cir.2016)
(reversing district court’s denial of JMOL, Federal Circuit
concluded that testimony of plaintiff’s expert “was not credible”)
(unpublished); see generally ABT Sys., LLC v. Emerson Elec. Co.,
797 F.3d 1350 (Fed. Cir. 2015) (reversing district court’s denial
of JMOL despite trial court’s conclusion that legally sufficient
evidence supported jury’s conclusion that specified process of
cycling home air-conditioning units on and off while not heating or
cooling in order to prevent air stagnation was not obvious based on
prior art); see generally ACCO Brands, Inc. v. ABA Locks Mfr. Co.,

26
Circuit judge has observed, when appellate courts fail to
give adequate deference to the jury’s factual findings, the
“effect is devastating” and incentivizes trial judges “to
take questions away from juries whenever possible.” Hon.
Kathleen O’Malley, Trial by Jury: Why It Works and Why
It Matters, 68 Am. U. L. Rev. 1095, 1105 (2019) (emphasis
in original). The Federal Circuit should be brought back
in line by this Court. The patent verdicts appealed to the
Federal Circuit involve tens to hundreds of millions of
dollars. When a valid jury verdict is struck down simply
because a judge takes a different view of the weight to
be given to competing evidence, the property rights and
protections that Congress intended for patents to provide
are diminished. The end result is that companies are less
willing to invest in research, development and product
innovation, and our economy suffers as a result.
The constitutional right to a “trial by jury in civil
cases [stands as] an important bulwark against tyranny
and corruption, a safeguard too precious to be left to the
whim of the sovereign, or, it might be added, to that of the
judiciary.” Parklane Hosiery Co. v. Shore, 439 U.S. 322,
343 (1979) (Rehnquist, J., dissenting); see Beacon Theatres,
Inc. v. Westover, 359 U.S. 500, 501 (1959) (“Maintenance of
the jury as a fact-finding body is of such importance and
occupies so firm a place in our history and jurisprudence
501 F.3d 1307 (Fed. Cir. 2007) (reversing district court’s denial of
JMOL relating to computer key lock system that incorporated both
infringing and non-infringing locking mechanism; jury weighed
testimony of plaintiff’s expert that the most natural and intuitive
way to use the lock was through the infringing locking mechanism
versus defendant’s testimony that customers were instructed to
use the non-infringing locking mechanism).

27
that any seeming curtailment of the right to a jury trial
should be scrutinized with the utmost care.” (internal
quotations, citation omitted)). Taking a case away from the
jury based on how it has weighed circumstantial evidence
circumvents the Seventh Amendment’s right to trial by
jury. U.S. Const. Amend. VII; Tennant v. Peoria & Pekin
Union Ry. Co., 321 U.S. 29, 35 (1944). As other circuits
have recognized, the Seventh Amendment prohibits a reexamination of a jury’s determination of the facts if there
is substantial evidence to support the verdict. Johansen
v. Combustion Eng’g, Inc., 170 F.3d 1320, 1330 (11th Cir.
1999). This Court’s review is warranted to protect the
right to trial by jury and to send a clear message to the
Federal Circuit that credibility determinations and the
weighing of evidence have no role in the consideration of
a motion for judgment as a matter of law.
CONCLUSION
For the reasons stated above, the Petition should be
granted.
Respectfully submitted,
Christopher Browning
Troutman Sanders LLP
305 Church Street, Suite 1200
Raleigh, NC 27609
(919) 835-4100

James M. Bollinger
Counsel of Record
Timothy P. Heaton
Phoenix S. Pak
Gerald E. Porter
Troutman Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-6000
james.bollinger@troutman.com

Counsel for Petitioners

APPENDIX

1a
A
APPENDIX Appendix
A — OPINION
OF THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT,
DECIDED FEBRUARY 28, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
BRIGHAM AND WOMEN’S HOSPITAL, INC.,
INVESTORS BIO-TECH, L.P.,
Plaintiffs-Cross-Appellants
v.
PERRIGO COMPANY, L. PERRIGO COMPANY,
Defendants-Appellants
Decided: February 28, 2019
2017-1950, 2017-2021, 2017-2555, 2018-1243
Appeals from the United States District Court for
the District of Massachusetts in No. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
Before LOURIE, O’MALLEY, and STOLL, Circuit
Judges.
Lourie, Circuit Judge.

2a
Appendix A
Perrigo Company and L. Perrigo Company (collectively,
“Perrigo”) appeal from the order of the U.S. District Court
for the District of Massachusetts denying judgment of
invalidity as a matter of law of U.S. Patent 5,229,137 (the
“‘137 patent”) on the basis of anticipation and obviousness.
Brigham & Women’s Hosp., Inc. v. Perrigo Co., 280
F. Supp. 3d 192, 205-06 (D. Mass. 2017) (“Decision”).
Brigham and Women’s Hospital, Inc. and Investors
BioTech, L.P. (collectively, “Brigham”) cross-appeal from
the same order granting judgment of noninfringement as
a matter of law. Id. at 205. Because the district court did
not err in its judgment of noninfringement, we affirm and
do not reach the remaining issues.
I. Background
Brigham’s ‘137 patent is directed to a method for
treating episodic heartburn by coadministering two
known types of heartburn medications, H 2 -receptor
antagonists (known as H2-blockers) and antacids. Antacids
were known to provide fast but momentary relief from
heartburn; in contrast, H2-blockers were known to provide
slower but longer-lasting relief. Critically, the method of
treatment as claimed requires that coadministering an
antacid and H2 -blocker achieves a certain clinical result:
“immediate and sustained relief from pain, discomfort
and/or symptoms associated with episodic heartburn.” ‘137
patent col. 7 ll. 23-25 (emphasis added). The dispositive
issue on appeal is whether Perrigo’s product meets the
“immediate and sustained relief” limitation.

3a
Appendix A
A.
Claim 1 of the ‘137 patent is the sole independent claim
asserted by Brigham and reads as follows:
1. A method of providing immediate and
sustained relief from pain, discomfort and/or
symptoms associated with episodic heartburn
in a human, said method comprising:
orally administering to a human together or
substantially together an antacid in an amount
effective to substantially neutralize gastric acid
and a histamine H 2 -receptor antagonist in an
amount effective to substantially inhibit or block
gastric acid secretion for providing the human
with immediate and sustained relief from
pain, discomfort and/or symptoms associated
with episodic heartburn, the immediate and
sustained relief provided lasting longer in
duration than when the human is orally treated
with only the antacid and the immediate and
sustained relief provided being faster than
and lasting at least about as long in duration as
when the human is orally treated with only the
histamine H 2 -receptor antagonist.
Id. col. 7 ll. 23-42 (emphasis added). The specification
defines “immediate and sustained relief,” disclosing:
It should therefore be appreciated that by
the term “immediate and sustained relief,”

4a
Appendix A
it means herein immediate, temporary and
sustained relief which starts within about
5-10 minutes following ingestion of the active
ingredients and continues and remains
constant for at least about 4-6 hours after
ingestion of the active ingredients; the actual
ingredients being an antacid and a histamine
H 2 -receptor antagonist.
Id. col. 3 ll. 22-29 (emphasis added).
B.
The ‘137 patent was filed on May 6, 1992, issued in
1993, and expired on May 6, 2012. Brigham exclusively
licensed the patent in 1996 to Johnson & Johnson Merck
Consumer Pharmaceuticals (“J&J”), also giving J&J the
right to pursue any infringement claims. In December
2004, Perrigo sent Brigham a Paragraph IV notice letter
informing Brigham that it had submitted an Abbreviated
New Drug Application (“ANDA”) to market a combination
H 2 -blocker/antacid tablet prior to the expiration of the
‘137 patent, and Brigham relayed this information to J&J
soon thereafter. J&J declined to assert the ‘137 patent
against Perrigo but did sue on a different patent. Perrigo
prevailed and then launched its generic product in 2008.
Several years later, in 2013, Brigham brought the present
suit accusing Perrigo’s generic product of infringing the
‘137 patent’s independent claim 1 and dependent claims
4, 5, 6, 7, and 12. Perrigo counterclaimed, asserting that
the ‘137 patent was invalid as anticipated and obvious.

5a
Appendix A
At claim construction, the district court construed
the term “immediate and sustained relief” to mean
“relief obtained from pain, discomfort and/or symptoms
associated with episodic heartburn which starts within
about 5-10 minutes following ingestion of the active
ingredients and continues for at least about 4-6 hours.”
J.A. 1380-82; Decision, 280 F. Supp. 3d at 200.
The parties proceeded to trial. A key dispute was
whether Perrigo’s generic product provided immediate
relief as defined by the ‘137 patent. The main evidence
regarding this limitation came from clinical data
underpinning J&J’s branded H2 -blocker/antacid product,
Pepcid Complete®. Brigham argued that the clinical data
demonstrated that Pepcid Complete® provides immediate
relief, and since Perrigo’s generic product has the same
active ingredients and dosages as Pepcid Complete®,
Perrigo’s generic product must also provide immediate
relief.
The clinical data came from three studies presented in
the New Drug Application (“NDA”) for Pepcid Complete®.
The first, Study 98, measured 23 qualifying patients’
esophageal and stomach pH levels after administering
Pepcid Complete® and compared changes in these pH
values to controls (an antacid or H 2 -blocker alone, or a
placebo). Undisputedly, lower (more acidic) esophageal
pH may correspond to episodic heartburn, which results
from reflux of stomach acid into the esophagus that can
cause pain associated with episodic heartburn. In the
study, “[a]n episode of acidic reflux was counted as a drop
from pH 5 or more to 4 or below . . . .” J.A. 7044. The

6a
Appendix A
study was designed to show that Pepcid Complete® would
raise esophageal pH faster than an H 2 -blocker alone and
comparably fast to an antacid alone.
Although the NDA’s description of Study 98 does
not directly state whether Pepcid Complete® provided
symptomatic relief from episodic heartburn starting
within about 5-10 minutes, as required by claim 1,
the NDA does include a figure of the patients’ mean
esophageal pH measured over one minute intervals before
and after administration of an antacid, Pepcid Complete®
(“FACT”), an H 2 -blocker (“famotidine”), or a placebo. We
reproduce this figure—Figure 7—below:

J.A. 7044.

7a
Appendix A
At trial, Brigham’s fact and expert witness and the
inventor of the ‘137 patent, Dr. M. Michael Wolfe, testified
concerning Figure 7. He opined that “the antacid, whether
it was in the combination or by itself, the pH rapidly rose
in the esophagus, and it persisted.” J.A. 7721. With respect
to the claimed immediate relief from episodic heartburn,
Dr. Wolfe further attested that “the increase in pH is what
we’re aiming for. It’s mopping up of the acid that’s present
there. If you mop it up, it’s going to relieve symptom; it’s
going to start to relieve symptoms fairly quickly.” Id.
In addition to the data from Figure 7, Study 98 also
reported the number and duration of esophageal reflux
episodes that occurred in the hour after administration
of the drugs. On average, patients experienced between
2 and 5 esophageal reflux episodes over the measurement
period.
In addition to the pH study, the NDA included two
symptom relief studies, Studies 110 and 127. Study 110
measured “adequate relief for onset of effect within 2
hours, and for duration of effect the number of episodes
of heartburn adequately relieved for at least 7 hours.” J.A.
7067. Adequate relief from heartburn, as determined by
a patient’s own assessment, was first measured fifteen
minutes after administration of one of the drugs listed
above. Results are shown in the table reproduced below:

8a
Appendix A

J.A. 7068.
Study 127 was similar to Study 110. It also measured
“adequate relief ” beginning fifteen minutes after
administration. Table 8, reproduced below, displays the
results:

J.A. 6999.
At trial, Dr. Wolfe testified that the parameter
measured in Studies 110 and 127—adequate relief at 15
minutes—would “correlate to immediate relief” within

9a
Appendix A
5-10 minutes, but he admitted that the two parameters
were different. J.A. 7847-48.
The jury returned a verdict finding that the asserted
claims of the ‘137 patent were not invalid, that Perrigo’s
generic product infringed each asserted claim, and that
Perrigo’s infringement was willful. The jury awarded
Brigham damages of about $10 million. The district court
entered judgment consistent with the verdict on December
19, 2016, but without specifying damages or resolving
Brigham’s claim for enhanced damages. J.A. 8739.
C.
Several days after the judgment, on December 23,
2016, both parties jointly requested the district court to
extend various deadlines for filing post-trial motions. The
joint request suggested a deadline for Perrigo’s motions
for judgment as a matter of law (“JMOL”) of January 24,
2017. The court granted the extensions in full.
Perrigo then moved for JMOL of noninfringement and
invalidity on the date of the revised deadline. Brigham
also then moved for enhanced damages. Additionally, in
Brigham’s opposition to Perrigo’s JMOL motions, Brigham
contended that Perrigo’s motions were untimely under
Rule 50(b). Soon afterwards, in February 2017, Perrigo
noticed an appeal from the district court’s December 19
judgment.
Several months later, the district court resolved the
parties’ pending motions. Brigham & Women’s Hosp., Inc.

10a
Appendix A
v. Perrigo Co., 251 F. Supp. 3d 285 (D. Mass. 2017) (“April
Decision”). The court ruled that its December 19, 2016,
judgment was final except for an accounting and therefore
triggered the 28-day mandatory deadline set forth in Rule
50(b) for renewed motions for JMOL. Id. at 289-90. The
28-day deadline fell on January 17, 2017, a week earlier
than the agreed-upon day on which Perrigo renewed its
JMOL motions. While the court recognized that it had
blessed the January 24 deadline, the court concluded that
it had lacked authority under the Federal Rules to do so.
Id. at 290-91 (citing Fed. R. Civ. P. 6(b)(2)). The court thus
denied Perrigo’s motions for JMOL and its notice of appeal
as untimely. Id. at 292. Finally, the district court denied
Brigham’s motion for enhanced damages because it found
that Perrigo’s conduct was not egregious. Id. at 293-94.
Perrigo again moved for JMOL and noticed a second
appeal on May 19 and May 11, 2017, respectively, this time
from the district court’s April decision. Brigham then
moved to dismiss for lack of jurisdiction, arguing that
Perrigo failed to timely file its JMOL motions and notice
of appeal. In a single-judge order, we denied the motion.
Brigham & Women’s Hosp., Inc. v. Perrigo Co., No. 20171950, -2021, slip op. at 4 (Fed. Cir. June 21, 2017), ECF
No. 33 (“Jurisdiction Decision I”). We concluded that
the district court’s December 19 judgment was not final
because it did not resolve Brigham’s claim for enhanced
damages. Id. at 3. Although we observed that Perrigo
could have appealed from the December 19 judgment
under 28 U.S.C. § 1292(c), we held that Perrigo was not
obliged to do so because such an appeal from a non-final
judgment “is permissive, not mandatory.” Id. (quoting

11a
Appendix A
DNIC Brokerage Co. v. Morrison & Dempsey Comm’cns
Inc., No. 90-1389, 1991 U.S. App. LEXIS 33748, 1991
WL 335745, at *1 (Fed. Cir. Apr. 25, 1991)). We held that
“[w]hat matters is that [Perrigo] filed a timely appeal
once all the issues were resolved by the April 24, 2017
decision.” Id. We thus consolidated both of Perrigo’s
appeals and deactivated them pending the district court’s
consideration of certain unresolved motions. Id. at 4.
Brigham moved for panel reconsideration. A threejudge panel reaffirmed our original decision. Brigham
& Women’s Hosp., Inc. v. Perrigo Co., No. 2017-1950,
-2021, slip op. at 8-9 (Fed. Cir. Aug. 2, 2017), ECF No. 38
(“Jurisdiction Decision II”).
D.
The district court then considered the pending
motions and granted JMOL of noninfringement because
it concluded that Brigham failed to present sufficient
evidence of direct infringement. Decision, 280 F. Supp. 3d
at 199. Specifically, the court determined that the clinical
evidence did not demonstrate that Pepcid Complete®
provided immediate relief from episodic heartburn. Id.
at 202.
The district court first assessed Study 98 and
Dr. Wolfe’s related testimony concerning Figure 7,
including his contention that Figure 7 showed immediate
relief through its rapid rise in esophageal pH after
administering Pepcid Complete®. However, the court
observed that Study 98 defined an episode of acid reflux

12a
Appendix A
as requiring esophageal pH to go to 4 or below, but the
average pH values in Figure 7 never did so. Id. at 202. And,
as the study did not otherwise purport to correlate pH
recordings to heartburn severity or other symptoms, the
court concluded that Figure 7 did not prove that patients
in the study were provided with immediate relief. Id.
The district court next considered the symptom relief
studies. Because these studies indisputably measured
a parameter different from the claimed immediate
relief—”adequate relief” at 15 minutes, not the start
of relief within 5-10 minutes—the court determined
that the symptom relief studies also did not support the
infringement verdict. Id.
Given Brigham’s proffered evidence of infringement,
the district court concluded that “no reasonable jury could
have found direct infringement and Perrigo is entitled to
judgment as a matter of law” of noninfringement with
respect to claim 1. Id. It similarly followed that Brigham
could not prove direct infringement of the dependent
claims. Id. Consequently, the court vacated the jury’s
award of damages. Id. at 205. The court denied Perrigo’s
motions for JMOL of invalidity. Id. at 204-05.
Perrigo appealed from the district court’s denial of
JMOL of invalidity and its denial of Perrigo’s evidentiary
motion. Brigham cross-appealed from the court’s grant
of JMOL of noninfringement, its denial of enhanced
damages, attorney fees, and pre-judgment interest, and
its conclusion with respect to a disputed invention date.

13a
Appendix A
II. Discussion
A. Jurisdiction
Notwithstanding that this court has twice decided
that we have jurisdiction over Perrigo’s appeal, Brigham
maintains that “[t]here is a serious question regarding
this Court’s jurisdiction to hear Perrigo’s appeal.” CrossAppellant Br. 1-2. Brigham points to no error, however,
in our decision, and simply requests that we “assure
[ourselves] that [we have] jurisdiction to hear the appeals
as presented.” Id. at 2. Presumably, Brigham refers to the
timeliness issue. But our prior decisions are law of the
case, and we do not disturb them.
Under the law of the case doctrine, “when a court
decides upon a rule of law, that decision should continue to
govern the same issues in subsequent stages in the same
case.” Christianson v. Colt Indus. Operating Corp., 486
U.S. 800, 816, 108 S. Ct. 2166, 100 L. Ed. 2d 811 (1988)
(quoting Arizona v. California, 460 U.S. 605, 618, 103
S. Ct. 1382, 75 L. Ed. 2d 318 (1983)). The underlying
principle of the doctrine is self-consistency. See Charles
Alan Wright et al., 18B Federal Practice & Procedure
Jurisdiction § 4478 (2d ed. 2002). “Without something
like it, an adverse judicial decision would become little
more than an invitation to take a mulligan, encouraging
lawyers and litigants alike to believe that if at first you
don’t succeed, just try again.” Entek GRB, LLC v. Stull
Ranches, LLC, 840 F.3d 1239, 1240 (10th Cir. 2016)
(Gorsuch, J.). As the doctrine is directed at the integrity
of the judicial process, we may address the law of the case

14a
Appendix A
sua sponte. See United States v. Wallace, 573 F.3d 82, 90
n.6 (1st Cir. 2009).
In two decisions, the latter by a three-judge panel,
we decided that Perrigo’s appeal in this case was timely
but deactivated it to allow the district court to resolve
Perrigo’s pending JMOL motions. Jurisdiction Decision
I, slip op. at 3; Jurisdiction Decision II, slip op. at 8-9.
In accordance with those decisions, the district court
resolved those motions, resulting in the judgment now
before us. Brigham now invites us to disregard the law
of the case and our prior decisions, without articulating
any reasons why we should do so.
We decline. We depart from the law of the case only
in “extraordinary circumstances such as where the initial
decision was ‘clearly erroneous and would work a manifest
injustice.’” Christianson, 486 U.S. at 817 (quoting Arizona,
460 U.S. at 618 n.8). No such circumstances are evident
here. The prior panel concluded that the district court’s
December 19 judgment was not a final judgment because
it did not resolve the issue of enhanced damages, and
that Perrigo’s appeal from that judgment was therefore
interlocutory. Jurisdiction Decision II, slip op. at 4-5.
While an aggrieved party may appeal under 28 U.S.C.
§ 1292(c)(2) from a district court’s judgment that does
not fully resolve damages, Robert Bosch, LLC v. Pylon
Mfg. Corp., 719 F.3d 1305, 1309 (Fed. Cir. 2013) (en banc),
the panel held that an appeal from such a judgment was
permissive, not mandatory. Jurisdiction Decision II, slip
op. at 8 (citing DNIC, 1991 U.S. App. LEXIS 33748, 1991
WL 335745, at *1); see Jurisdiction Decision I, slip op. at

15a
Appendix A
3. In DNIC, we encountered a situation similar to the one
here—an untimely appeal from a judgment not specifying
damages, but a timely appeal from a later judgment that
did specify damages. 1991 U.S. App. LEXIS 33748, 1991
WL 335745, at *1. There, we permitted the appeal as to
issues from both the earlier and later judgments. 1991
U.S. App. LEXIS 33748, [WL] at *2. We see no clear
error or manifest injustice in the prior panel’s consistent
holding here.
A s Br i gh a m h a s a l leg e d no e x t r a or d i n a r y
circumstances warranting departure from the law of the
case, we conclude that we have jurisdiction over these
appeals under 28 U.S.C. § 1295(a)(1). We therefore proceed
to the merits. We decide only the question regarding
infringement.1

1. Under Cardinal Chemical Co. v. Morton Int’l, Inc., 508
U.S. 83, 113 S. Ct. 1967, 124 L. Ed. 2d 1 (1993), a judgment of
noninfringement does not moot a counterclaim of invalidity. However,
“we retain the discretion to limit the grounds upon which appeals
are decided.” Meds. Co. v. Mylan, Inc., 853 F.3d 1296, 1302 n.1 (Fed.
Cir. 2017) (affirming judgment of noninfringement and not reaching
issues of validity). Given the facts here, we decline to reach the issues
of validity. Perrigo agrees that affirming noninfringement would
make it unnecessary to review the patent’s validity. Reply Br. 3. And
while we recognize the “strong public interest” in resolving questions
of patent validity, Cardinal Chem., 508 U.S. at 100, that interest
here is minimal because the ‘137 patent has expired and cannot be
asserted against others, there are no pending suits involving the
patent, and there are no related patents in examination at the U.S.
Patent and Trademark Office.

16a
Appendix A
B. Infringement
We review the district court’s grant of JMOL of
noninfringement under First Circuit law. “In assessing
the sufficiency of the evidence, we consider whether,
viewing the evidence in the light most favorable to the
verdict, a rational jury could find in favor of the party
who prevailed.” Soto-Lebron v. Fed. Express Corp., 538
F.3d 45, 56 (1st Cir. 2008). JMOL is warranted when the
prevailing party’s case contained no legally sufficient
evidentiary basis for a reasonable jury to find for that
party. Id.; Fed. R. Civ. P. 50(a)(1). We review the court’s
grant of JMOL de novo. Soto-Lebron, 538 F.3d at 56.
At trial, Brigham alleged only literal infringement.
Literal infringement is a question of fact and requires
every limitation in the claim to be found in the accused
product. Akzo Nobel Coatings, Inc. v. Dow Chem. Co.,
811 F.3d 1334, 1339, 1341 (Fed. Cir. 2016). “If even one
limitation is missing or not met as claimed, there is no
literal infringement.” Mas-Hamilton Grp. v. LaGard,
Inc., 156 F.3d 1206, 1211 (Fed. Cir. 1998). The patentee
has the burden of proving literal infringement by a
preponderance of the evidence. Enercon GmbH v. Int’l
Trade Comm’n, 151 F.3d 1376, 1384 (Fed. Cir. 1998).
Brigham argues that the district court erred in
overturning the jury verdict and granting JMOL of
noninfringement. According to Brigham, the court
misinterpreted Figure 7 and improperly dismissed
the other studies. Based on the totality of the evidence
presented, Brigham asserts that a reasonable jury could
have found infringement.

17a
Appendix A
Perrigo responds that the district court properly
granted JMOL of noninfringement because none of the
evidence presented to the jury demonstrated immediate
and sustained relief as claimed in the ‘137 patent.
We agree with Perrigo that the district court’s JMOL
of noninfringement was proper. The parties’ dispute
centers on whether the evidence at trial was sufficient to
show that Pepcid Complete®, and by implication Perrigo’s
generic product, provides “immediate . . . relief from pain,
discomfort and/or symptoms associated with episodic
heartburn.” ‘137 patent col. 7 ll. 23-25. The district court’s
construction of this term is undisputed: immediate relief
means “relief obtained from pain, discomfort and/or
symptoms associated with episodic heartburn which starts
within about 5-10 minutes following ingestion of the active
ingredients.” J.A. 1380-82; Decision, 280 F. Supp. 3d at
200. As we discuss, Brigham’s evidence was insufficient
to show immediate relief as claimed, and no reasonable
jury could have found otherwise.
Brigham’s infringement case relied primarily on the
clinical studies 98, 110, and 127 reported in the NDA for
Pepcid Complete®. Like the district court, we begin with
Figure 7 of Study 98, reproduced earlier. Figure 7 depicts
mean esophageal pH before and after Pepcid Complete®
or a control drug is administered to a set of patients.
The sole heartburn symptom related to esophageal pH
measured in the study was acidic reflux, and “[a]n episode
of acidic reflux was counted as a drop from pH 5 or more
to 4 or below.” J.A. 7044. None of the curves at any point
in Figure 7 depict a mean pH below 4. Nor does the study
disclose individual esophageal pH data.

18a
Appendix A
Because Study 98 defined an episode of acidic
reflux as requiring a drop in pH to below 4, but the pH
curves in Figure 7 never drop below 4, the district court
concluded that Figure 7 could not prove that the patients
in Study 98 taking Pepcid Complete® were provided with
immediate relief from episodic heartburn within 5-10
minutes. Decision, 280 F. Supp. 3d at 202. We agree. While
Figure 7 does show a rapid rise in esophageal pH after
administering Pepcid Complete®, that rise is untethered
to any symptomatic relief. It cannot support the jury
verdict that Pepcid Complete® provides immediate relief
from episodic heartburn within 5-10 minutes. At most,
the study suggests that Pepcid Complete® might provide
immediate and sustained relief; such speculative data,
however, cannot sustain Brigham’s burden of proof.
Brigham argues that Study 98’s definition of an episode
of acidic reflux only applies to a prior table showing the
number and duration of esophageal reflux episodes, not
to Figure 7. Implicit in Brigham’s argument is the notion
that the investigators defined an episode of acidic reflux
in different ways within the same study. Brigham cites
no evidence in support of that reading. Moreover, the
general definition of an episode of acidic reflux offered in
Study 98 does not refer to any particular data or figure,
and the study contains no alternative definition. Thus,
no reasonable jury could have interpreted the study
according to Brigham’s newly presented reading.
Brigham also emphasizes that Figure 7 involved
patients who generally experienced heartburn. This
may be true but it is irrelevant to whether Figure 7

19a
Appendix A
demonstrated immediate relief from heartburn symptoms
within 5-10 minutes. The fact that the patients in Study
98 experienced heartburn at some time does not support
a finding that the rise in esophageal pH shown in Figure
7 demonstrated the claimed immediate relief.
We next consider Studies 110 and 127, which did report
symptomatic relief from heartburn. However, the district
court concluded that these studies could not support
the infringement verdict because they each measured
“adequate relief” beginning at 15 minutes, not immediate
relief starting within 5-10 minutes as claimed. Decision,
280 F. Supp. 3d at 202. There is no dispute that adequate
relief first measured at 15 minutes after administration
is a parameter different from relief starting 5-10 minutes
after administration. Dr. Wolfe testified as such. J.A. 7846
(“[I]t’s onset versus — this is adequate relief. Different
parameters.”). As Studies 110 and 127 did not measure
the result that Brigham claimed in the ‘137 patent, we
agree with the district court that they do not support the
jury verdict.
On appeal, Brigham argues that the evidence of
adequate relief at 15 minutes necessarily showed onset
of relief within 5-10 minutes. But at most, Dr. Wolfe’s
testimony only indicated that the measured parameter
would “correlate to” the claimed result. J.A. 7847 (“‘15
minutes would be in the five or ten, around that time.’ So
that would correlate to immediate relief.”). Data merely
correlating to the claimed limitation does not suffice to
prove literal infringement. As Dr. Wolfe testified regarding
the data on adequate relief at 30 minutes, “[w]e have no

20a
Appendix A
idea” how many patients in Studies 110 and 127 were
provided relief starting within 5-10 minutes because that
result was not measured or even estimated in either study.
J.A. 7791. “Although a jury is entitled to draw reasonable
inferences from circumstantial evidence, reasonable
inferences themselves must be more than speculation
and conjecture.” Phillip M. Adams & Assocs., LLC v.
Dell Comput. Corp., 519 F. App’x 998, 1004 n.10 (Fed. Cir.
2013) (quoting Sunward Corp. v. Dun & Bradstreet, Inc.,
811 F.2d 511, 521 (10th Cir. 1987)); see Welch v. Ciampa,
542 F.3d 927, 935 (1st Cir. 2008) (“Although we give the
nonmoving party the benefit of all reasonable inferences,
a party cannot rest on ‘conclusory allegations, improbable
inferences, [or] unsupported speculation’ to defeat a
motion for summary judgment.” (alteration in original)
(quoting McCarthy v. Northwest Airlines, Inc., 56 F.3d
313, 315 (1st Cir. 1995))). Because only speculation supports
Brigham’s contention that data showing adequate relief at
15 minutes implies that relief started within 5-10 minutes,
it cannot sustain the jury verdict.
Brigham also points to other evidence purportedly
showing that Pepcid Complete® provided the claimed
immediate relief—that antacids were conventionally
known to act quickly, and that the NDA stated that Pepcid
Complete® worked as quickly as an antacid. However,
none of this evidence indicates that Pepcid Complete®
provides immediate relief within 5-10 minutes as claimed.
It therefore cannot support the infringement verdict.
Last, we consider the bare assertion by Dr. Wolfe,
the inventor of the ‘137 patent, that he ingested Perrigo’s

21a
Appendix A
product after litigation began, and that it provided
immediate relief as claimed. J.A. 7760 (“Q. And you
have no direct evidence that Perrigo’s generic product
provides immediate relief within five to ten minutes,
correct? A. Well, yeah. I took it myself, and it does.”);
J.A. 7758. Considering the absence of any clinical data
demonstrating the claimed immediate relief, we conclude
that this uncorroborated, conclusory, and interested
testimony is insufficient to carry Brigham’s burden of
proof and to sustain the jury verdict. See Medtronic Inc.
v. Boston Sci. Corp., 558 F. App’x 998, 1000 (Fed. Cir.
2014) (“The district court correctly noted that conclusory
statements are insufficient to support a verdict finding
infringement under the doctrine of equivalents . . . .”); cf.
McKeown v. Bayshore Concrete Prods. Corp., 34 F. App’x
741, 743 (Fed. Cir. 2002) (“[U]nsupported, conclusory
statements on the ultimate issue of infringement are
wholly insufficient to raise a genuine evidentiary dispute
for trial.”).
Having considered the totality of the evidence, we
agree with the district court that Brigham failed as a
matter of law to prove that Perrigo’s product meets the
claimed limitation of providing immediate relief from
episodic heartburn within 5-10 minutes. Because each
asserted claim contains this limitation, the court did
not err in concluding that the infringement verdict and
damages award could not stand.

22a
Appendix A
CONCLUSION
We have considered Brigham’s remaining arguments
but find them unpersuasive. For the foregoing reasons, we
affirm the judgment of the district court.
AFFIRMED

23a
Appendix B
APPENDIX B — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MASSACHUSETTS
FILED NOVEMBER 17, 2017
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 13-11640-RWZ
BRIGHAM AND WOMEN’S HOSPITAL, INC.
AND INVESTORS BIO-TECH, L.P.,
v.
PERRIGO COMPANY
AND L. PERRIGO COMPANY.
November 17, 2017
MEMORANDUM AND ORDER
ZOBEL, S.D.J.
On June 21, 2017, the United States Court of Appeals
for the Federal Circuit, by Judge Wallach, deactivated
the appeals filed by defendants Perrigo Company and L.
Perrigo Company (collectively, “Perrigo”). See Docket #
319. Accordingly, before me now are Perrigo’s renewed
motions for judgment as a matter of law and, in the
alternative, motions for a new trial. See Docket ## 298,
300, 303, 306. Plaintiffs Brigham and Women’s Hospital,
Inc., and Investors Bio-Tech, L.P. (collectively, “Brigham”)

24a
Appendix B
oppose all these motions and separately move to amend
the August 9, 2017, final judgment (Docket # 344).
I.

Procedural Background

The court held an eight-day jury trial which concluded
on December 14, 2016, with a jury verdict in favor of
plaintiffs. See Docket # 222. Specifically, the jury found
(1) direct, induced, contributory, and willful infringement
by Perrigo of all asserted claims of U.S. Patent No.
5,229,137 (“the ’137 patent”); (2) an effective priority
date of March 1990; and (3) all asserted claims valid. It
declined to award pre-judgment interest but awarded
Brigham $10,210,071 in damages and rejected Perrigo’s
laches defense, finding that Brigham knew or should have
known of their infringement claim against Perrigo as of
August 11, 2008. Judgment was entered on December
19, 2016, without specifying the amount of damages owed
to Brigham. On January 24, 2017, Perrigo filed several
motions for judgment as a matter of law or a new trial
under Federal Rules of Civil Procedure 50(d) and 59(d).
Brigham opposed these motions on the ground that they
had not been timely filed, and further argued that Perrigo
failed to timely appeal from the December 2016 judgment.
In a memorandum and order issued on April 24, 2017, I
denied Perrigo’s post-trial motions. The Federal Circuit,
however, ruled that the December 2016 judgment was
not final because “the issue of enhanced damages had not
been resolved,” Docket # 319, at 3, and therefore denied
Brigham’s motion to dismiss the appeals. Subsequently,
this court entered a final judgment in accordance with
the December 14, 2016, jury verdict and the court’s April

25a
Appendix B
24, 2017, memorandum and order. See Docket # 342. The
Federal Circuit deactivated the appeals and instructed
the court to consider the pending post-judgment motions.
II. Factual Background
A. ’137 Patent
The ’137 patent discloses Dr. M. Michael Wolfe’s
invention of pharmaceutical medications and methods for
providing humans with instant and sustained relief from
the pain, discomfort, and other symptoms associated with
episodic heartburn.1 Claim 1, the only independent claim
asserted, of the ’137 patent claims:
A method of providing immediate and sustained
relief from pain, discomfort and/or symptoms
associated with episodic heartburn in a human,
said method comprising:
orally administering to a human
together or substantially together
an antacid in an amount effective
to substantially neutralize gastric
acid and a histamine H 2 -receptor
antagonist in an amount effective
to substantially inhibit or block
1. Dr. Wolfe assigned his rights to the ’137 patent to Brigham
and Women’s Hospital, Inc., which subsequently entered into an
exclusive license with Investors Bio-Tech, L.P. because “the Brigham
is not in the business of licensing drugs,” Docket # 231, at 34:1–13
(Jury Trial Day 2 Tr.).

26a
Appendix B
gastric acid secretion for providing
the human w ith immediate and
sustained relief from pain, discomfort
and/or symptoms associated with
episodic heartburn, the immediate
and sustained relief provided lasting
longer in duration than when the
human is orally treated with only
the antacid and the immediate and
sustained relief provided being faster
than and lasting at least about as long
in duration as when the human is
orally treated with only the histamine
H 2 -receptor antagonist.
Docket # 299-2 (JTX-001), Col. 7:23-42. Brigham also
asserts that Perrigo infringed dependent claims 4, 5, 6,
7 and 12. 2
B. The License Agreement
In 1996, Brigham and Johnson & Johnson Merck
Consumer Pharmaceuticals (“JJMCP”) entered into an
exclusive license agreement (the “License Agreement”)
that gave JJMCP the first right, but not obligation, “to
prosecute . . . any infringement of the [’137 patent] that
involves products or methods in which FAMOTIDINE
is combined or used in combination simultaneously or
2. Perrigo’s main argument in its post-judgment motion,
however, is that its Generic Product did not infringe claim 1, and
therefore, did not infringe the dependent claims. Thus, my analysis
focuses only on claim 1 of the ’137 patent.

27a
Appendix B
substantially simultaneously with an ANTACID.” Docket
# 304-2, at DTX-0005-0014. The parties agreed to notify
each other “promptly of each such infringement of which
[Brigham] or JJMCP is or becomes aware.” Id. Section
8.6 of the License Agreement further provides:
If, after the expiration of one hundred and
twenty (120) days from a request to do so,
JJMCP has not demonstrated that in fact
no infringement has occurred, obtained a
discontinuance of infringement, or brought
suit against the third party infringer, then
[Brigham] shall have the right after such one
hundred twenty (120) day notice period, but
not the obligation, to bring suit against such
infringer and at its option to join JJMCP as a
party plaintiff, provided that [Brigham] shall
bear all the expenses of such suit.
Id. at DTX-0005-0016.
Section 11.6, under “Termination,” states:
The termination of this Agreement for any
reason shall not relieve any party of any
obligation relating to activities occurring prior
to the effective date of such termination, nor
shall any party be deemed to waive any right
to seek damages, equitable relief or other
remedies following any termination of the
Agreement.
Id. at DTX-0005-0022.

28a
Appendix B
1.

Perrigo’s ANDA and Launch of Its Generic
Product

On December 23, 2004, Perrigo sent Brigham its
Paragraph IV notice letter informing Brigham that it
had submitted an Abbreviated New Drug Application
(“A NDA”) to the FDA for per mission to market
famotidine/antacid chewable tablets prior to the expiration
of the ’137 patent, and its certification of invalidity and
non-infringement. Docket # 333-3. On January 4, 2005,
Brigham in turn notified JJMCP. Citing to paragraph 8.1
of the License Agreement, Brigham sought a response
from JJMCP whether it would elect to pursue Perrigo.
See Docket # 307-4, at DTX-0071-0002. On January 31,
2005, JJMCP informed Brigham that it would “refrain
from exercising its rights under Article 8.1 of [the License
Agreement] at this time,” and that “[t]his election applies
to Perrigo’s activities and actions associated with the filing
of an [ANDA] . . . for permission to market famotidine/
antacid chewable tablets prior to expiration of [the ’137
patent].” Docket # 333-5, at PTX-016.0001. JJMCP
elected instead to sue Perrigo under its own separate
patent, which triggered the thirty-month statutory stay on
approval of Perrigo’s ANDA. See Docket # 225, at 64:11–18
(Jury Trial Day 3 Tr.). Consequently, Brigham declined to
file suit in 2005 because “[it] had no reason to file a lawsuit.
There’s not going to be a product launch [for another 30
months due to JJMCP’s litigation], but, more importantly,
if Johnson & Johnson succeeded, then Perrigo could never
launch a product. So, in 2005, [Brigham] had absolutely no
reason to do anything other than to see what happens.”
Id. at 64:19–24.

29a
Appendix B
Perrigo launched Famotidine Complete (the “Generic
Product”) in 2008. 3 Brigham declined to file suit at that
time because it decided not “to engage in protracted and
expensive litigation with a generic company that may
never sell much of their product,” id. at 68:3–7. In 2013,
Brigham eventually brought suit against Perrigo for direct
infringement because the ’137 patent was soon expiring
and Perrigo was “sell[ing] tens of million of dollars worth
of product,” id. at 69:21–22.
III. Standard
“The standard for granting a Rule 50 motion is
stringent. ‘Courts may only grant a judgment contravening
a jury’s determination when the evidence points so
strongly and overwhelmingly in favor of the moving party
that no reasonable jury could have returned a verdict
adverse to that party.’” Malone v. Lockheed Martin Corp.,
610 F.3d 16, 20 (1st Cir. 2010) (quoting Rivera Castillo v.
Autokirey, Inc., 379 F.3d 4, 9 (1st Cir. 2004)). In making
its determination, the court may not weigh the evidence,
determine the credibility of the witnesses presented, or
attempt to resolve conflicting testimony. MacQuarrie v.
Howard Johnson Co., 877 F.2d 126, 128 (1st Cir. 1989).
Under Federal Rule of Civil Procedure 59(a), a court
may order a new trial “only if the verdict is against the law,
3. The lawsuit between JJMCP and Perrigo, in which Perrigo
prevailed, concluded in 2008. See Docket # 225, at 67:16–18 (Jury
Trial Day 3 Tr.) (“By 2008 that lawsuit had ended and Perrigo won.
So, Perrigo apparently now had the opportunity and decided to
launch Famotidine Complete.”)

30a
Appendix B
against the weight of the credible evidence, or tantamount
to a miscarriage of justice.” Crowe v. Marchand, 506 F.3d
13, 19 (1st Cir. 2007) (quoting Casillas-Diaz v. Palau, 463
F.3d 77, 81 (1st Cir. 2006)).
IV. Discussion
Perrigo seeks judgment as a matter of law on
standing, infringement, invalidity, and damages, or in
the alternative, moves for a new trial on these issues. I
address first the threshold issue of standing.
A.

Standing

Perrigo renews its motion for judgment as a matter
of law on the issue of standing.4 Perrigo contends that
4. In my pretrial order, I allowed defendants to file supplemental
briefing on the issue of standing because “[t]he existing record [was]
insufficient to resolve this question.” Docket # 183, at 3. Perrigo
subsequently filed its motion to dismiss for lack of standing a week
prior to trial. At the outset of trial, the same day that Brigham’s
opposition was due, I heard argument from the parties. I denied
Perrigo’s motion because I found “that the [License Agreement] is
sufficiently ambiguous” to decide the issue of standing, Docket # 3361, at 7. Brigham contends that because Perrigo’s motion to dismiss
was denied, and Perrigo failed to file a motion for reconsideration,
it cannot move for judgment as a matter of law on this issue. As
Perrigo correctly notes, however, it continued to preserve its right to
judgment as a matter of law and I reserved judgment on that issue.
See Docket # 235, at 164 (Jury Trial Day 8 Tr.); see also Docket #
218 (Perrigo’s pre-verdict Rule 50(a) motion raising the issue of
standing). In any event, to the extent there may have been procedural
errors, the issue of standing “can be neither waived nor assumed.”

31a
Appendix B
the launch of its Generic Product in 2008 constituted a
separate potentially infringing action apart from the filing
of its ANDA in 2005 that triggered the notice requirement
under section 8.1 of the License Agreement. Accordingly,
it argues, because Brigham failed to notify JJMCP about
Perrigo’s launch of its Generic Product prior to filing suit
in 2013, and thereby failed to trigger the 120-day notice
period and seek the requisite authority from JJMCP,
Brigham lacked prudential standing5 to bring suit against
Perrigo. Brigham maintains that it has standing to sue
because: (1) it owned title to the ’137 patent at all times;
(2) the License Agreement only authorized JJMCP to
bring suit during the effective period of its license; and
(3) JJMCP’s waiver of its right to pursue Perrigo in
2005 “was for any infringement arising of out Perrigo’s
activities broadly relating to the ’137 patent occurring
prior to patent expiration,” Docket # 333, at 16.
“The typical challenge to prudential standing in
a patent infringement case occurs when an alleged
infringing party asserts that the plaintiff, a licensee with
Willis v. Government Accountability Office, 448 F.3d 1341, 1343–44
(Fed. Cir. 2006) (internal citations omitted). Accordingly, Perrigo’s
renewed motion on standing is properly before me.

5. Perrigo concedes that “Plaintiffs are the owner/exclusive
licensee of the ’137 patent, so they have Article III standing.”
Docket # 336, at 4. Accordingly, Perrigo’s reliance on Abraxis
Bioscience v. Navinta, 625 F.3d 1359, 1367 (Fed. Cir. 2010), is
misplaced. In Abraxis, the issue was whether the plaintiff was able
to “‘demonstrate that it held enforceable title to the patent,’” id. at
1364 (quoting Paradise Creations Inc. v. UV Sales, Inc., 315 F.3d
1304, 1309–10 (Fed. Cir. 2003)), i.e., Article III standing.

32a
Appendix B
rights to or under the asserted patent, lacked standing to
bring the original lawsuit because the patent owner was
not a party to the suit.” Evident Corp. v. Church & Dwight
Co., Inc., 399 F.3d 1310, 1314 (Fed. Cir. 2005). Instead,
“[t]his case presents a converse scenario in which the
patent owner seeks to bring suit,” Alfred E. Mann Found.
For Sci. Research v. Cochlear Corp., 604 F.3d 1354, 1359
(Fed. Cir. 2010), and defendants dispute the patent owner’s
prudential standing based on the terms of the License
Agreement. The facts of this case are nearly identical to
the facts in Alfred E. Mann, with one important exception:
here, Brigham did not notify JJMCP prior to filing suit in
2013 based on Perrigo’s launch of its Generic Product in
2008. Cf. id. at 1358 (“After [the] license agreement was
entered into, [licensor] notified [licensee] of [defendant’s]
allegedly infringing activity and sought to determine
[licensee’s] decision regarding whether to sue [defendant]
for infringement”). The Federal Circuit noted, albeit in
dicta, that a licensor’s “right to choose to sue an infringer
does not vest until [the exclusive licensee] chooses not to
sue that infringer,” id. at 1362 (emphasis added). Thus,
the issue turns on whether Brigham was required, under
the License Agreement, to notify JJMCP after Perrigo
had launched its Generic Product in order to bring suit
against Perrigo under 31 U.S.C. § 271(a).
Brigham argues that it did not need to notify JJMCP
again in 2008, or anytime thereafter, about Perrigo’s
launch of its Generic Product because JJMCP’s waiver in
2005 applied to “any infringement arising of out Perrigo’s
activities broadly relating to the ’137 patent occurring
prior to patent expiration,” Docket # 333, at 16. Brigham

33a
Appendix B
also argues that it was not required to notify JJMCP
because it brought suit a year after the License Agreement
had terminated in 2012. I reject both arguments. First,
the License Agreement explicitly provides that the
parties would notify each other “promptly of each such
infringement of which [Brigham] or JJMCP is or becomes
aware.” Docket # 304-2, at DTX-0005-0014 (emphasis
added). The launch of its generic product was a separate
infringing action from the filing of its ANDA. Second,
JJMCP explicitly cabined its waiver in 2005 to “refrain
from exercising its rights under Article 8.1 of [the License
Agreement] at this time,” and that “[t]his election applies
to Perrigo’s activities and actions associated with the filing
of an [ANDA] . . . for permission to market famotidine/
antacid chewable tablets prior to expiration of [the ’137
patent].” Docket # 333-5, at PTX-016.0001 (emphasis
added). And although Brigham brought suit a year
after the License Agreement expired, it seeks damages
for alleged infringing activity that occurred while the
License Agreement was still in effect. Section 11.6 of the
License Agreement provides that “[t]he termination of
this Agreement for any reason shall not relieve any party
of any obligation relating to activities occurring prior
to the effective date of such termination . . . .” Docket #
304-2, at DTX-0005-0022 (emphasis added). As a result,
Brigham was obligated to abide by the requirements of
Section 8 and provide notice to JJMCP prior to initiating
suit in 2013.
Nevertheless, I find that Brigham has prudential
standing to sue Perrigo. “Prudential standing to sue
for patent infringement derives from 35 U.S.C. § 281: ‘A

34a
Appendix B
patentee shall have remedy by civil action for infringement
of his patent.’” Int’l Gamco, Inc. v. Multimedia Games,
Inc., 504 F.3d 1273, 1276 (Fed. Cir. 2007). “The crux
of [Federal Circuit] standing caselaw has always been
whether a plaintiff has all substantial rights in the patentat-issue.” Keranos, LLC v. Silicon Storage Tech., Inc., 797
F.3d 1025, 1033 (Fed. Cir. 2015). Here, Brigham retained
substantial rights in the ’137 patent under the License
Agreement:
• The right to control JJMCP’s ability to settle
or dispose of litigation by requiring JJMCP
seek written consent from Brigham prior
to entering any such disposition. Brigham’s
consent could not be unreasonably withheld.
• The secondary right to sue to enforce the
’137 patent and maintain absolute control
over any suit it brought in its own name.
• T he r ight t o t er m i nat e the License
Agreement if JJMCP missed payments to
Brigham.
See Docket # 304-2, at DTX- 005.0014 –19, 21; see
AsymmetRx, Inc v. Biocare Med., LLC, 582 F.3d 1314,
1321 (Fed. Cir. 2009) (explaining that “even if [licensee]
exercises its option to sue for infringement, it is obligated
under the [license agreement] to consider [licensor’s]
views and . . . [licensor’s] approval is necessary for any
settlement of any suit”); see also Alfred E. Mann, 604 F.3d
at 1362 (“Such a broad right to decide whether to bring

35a
Appendix B
suit and to control litigation is thoroughly inconsistent with
an assignment of the patents-in-suit to [the licensee]”).
Further, the grant was for a field-of-use license that was
limited to “products and methods in which FAMOTIDINE
is combined or used in combination simultaneously or
substantially simultaneously with an ANTACID.” Docket
# 304-2, at DTX-014.0003. Thus, had JJMCP elected
to sue Perrigo in 2005 or 2008, it would have had to
join Brigham as a necessary party in order to establish
prudential standing. See A123 Sys. Inc. v. Hydro-Quebec,
626 F.3d 1213, 1217 (Fed. Cir. 2010) (“Under long-standing
prudential standing precedent, an exclusive licensee with
less than all substantial rights in a patent, such as a fieldof-use licensee, lacks standing to sue for infringement
without joining the patent owner.”).Therefore, prudence
does not warrant a determination that Brigham lacked
standing to sue in this case.6
B. Infringement
In any event, after consideration of the record evidence,
I find that Brigham failed to present sufficient evidence to
prove direct infringement. “Literal infringement requires
the patentee to prove that the accused [product] contains
each limitation of the asserted claim.” Catalina Marketing
Int’l, Inc. v. Coolsavings.com, Inc., 289 F.3d 801, 812
6. Perrigo argues that Brigham’s “positions on standing and
laches are irreconcilable, thus requiring a judgment of no standing
and/or laches as a matter of law.” Docket # 307, at 10. Perrigo,
however, did not brief the issue of laches in its pending post-judgment
motions. Therefore, I decline to disturb the jury’s finding on this
issue.

36a
Appendix B
(Fed. Cir. 2002) (citation omitted). The patentee bears
the burden to prove infringement by a preponderance
of the evidence. Siemens Med. Solutions USA, Inc. v.
Saint-Gobain Ceramics & Plastics, Inc., 637 F.3d 1269,
1279 (Fed. Cir. 2011).
Perrigo argues that Brigham failed to meet its burden
because it did not present any evidence that Perrigo’s
product directly reads onto the asserted claim limitations
of the ’137 patent. Specifically, Perrigo argues that
Brigham failed to present evidence of data relating to
Perrigo’s product. Indeed, Brigham’s expert, Dr. Wolfe,
conceded that there is no direct evidence that shows a
person who took Perrigo’s product met the limitations
of claim 1—namely, the immediate and sustained relief
limitation. Instead, during the trial, Brigham relied
on indirect evidence, including bioequivalence data
from Perrigo’s ANDA7 and studies from the New Drug
Application (“NDA”) for Pepcid Complete that Brigham
contends were incorporated into Perrigo’s label. 8 Brigham
7. See Docket # 225, at 21:5–12 (Jury Trial Day 3 Tr.) (Dr.
Wolfe testifying that the FDA knew Perrigo’s Generic Product would
be therapeutically effective because “an antacid is an antacid is an
antacid, [the FDA] would look at the effects . . . on absorption and
bioavailability of the H2 blocker. That’s accomplished by looking at
the blood levels, and that’s [why] bioequivalence was deemed to be
necessary”).
8. See Docket # 225, at 23:22–23 (Jury Trial Day 3 Tr.) (Dr.
Wolfe testifying that the label for Perrigo’s Generic Product is the
same exact label as that for Pepcid Complete such that the graphs
concerning onset and duration of relief on Perrigo’s product label
incorporates the same onset and relief data in JJMCP’s NDA).

37a
Appendix B
thus attempted to circumstantially prove that Perrigo’s
Generic Product infringed the ’137 patent by arguing
that Pepcid Complete is a commercial embodiment of
the ’137 patent and that Perrigo’s Generic Product is
an exact copy of Pepcid Complete. See Docket # 231, at
153:21–24 (Jury Trial Day 2 Tr.) (“Q: And did you have
any basis for your opinion that Perrigo’s product infringed
in 2008? A: Yes . . . . It was basically Pepcid Complete.”).
Therefore, Brigham could only prevail if it proved that its
product meets all of the claim limitations. See Braintree
Laboratories, Inc. v. Novel Laboratories, Inc., No. Civ.
A. 11-1341-PGS, 2013 WL 211252, at *5 (D.N.J. Jan. 18,
2013), vacated and remanded, 749 F.3d 1349 (Fed. Cir.
2014) (explaining that where a generic product is “exactly
the same” as the branded product, infringement is found
“if each claim limitation is met by [the branded product]”);
see also Adams Respiratory Therapeutics, Inc. v. Perrigo
Co., 616 F.3d 1283, 1289 (Fed. Cir. 2010) (“[W]hen a
commercial product meets all of the claim limitations,
then a comparison to that product may support a finding
of infringement.”).
The main dispute hinges on whether Brigham
successfully proved that its product meets the “immediate
and sustained relief” limitation in claim 1. The court
construed that limitation to mean “relief obtained from
pain, discomfort and/or symptoms associated with episodic
heartburn which starts within about 5 –10 minutes
following ingestion of the active ingredients and continues
for at least about 4–6 hours.” Docket # 105, at 6. Claim 1
further requires that: (1) “the immediate and sustained
relief provided last[s] longer in duration than when the

38a
Appendix B
human is orally treated with only the antacid;” and (2)
“the immediate and sustained relief provided [is] faster
than and last[s] at least about as long as in duration as
when the human is orally treated with only the histamine
H2-receptor antagonist.” Docket # 299-2, at 7:34–42.
To prove that Pepcid Complete meets this limitation,
and thereby the Generic Product does as well, Brigham
relied on clinical studies that were submitted to the
FDA as part of JJMCP’s NDA for Pepcid Complete.
Brigham argues that “these studies demonstrated that
the combination of active ingredients9 present in both
parties’ products (‘famotidine-antacid combination
tablet’) provided the same therapeutic benefit for
episodic heartburn.” Docket # 334, at 10. To prove this
limitation, Brigham specifically relied on Study 098, which
measured “the pharmacodynamic effect on esophageal
and intragastric pH of the four preparations that were
to be used in the clinical studies.” Docket # 299-15, at
PTX-044.015. Dr. Wolfe referred to a graph, Figure 7,
from Study 098 that measured the esophageal pH means
at 1-minute intervals:

9. Brigham provided undisputed evidence that the Generic
Product contains the same active ingredients as Pepcid Complete.
See Docket # 334-2, at 3 (excerpt from Perrigo’s ANDA showing that
Generic Product contains the same active ingredients, strength, and
indications as Pepcid Complete).

39a
Appendix B

Docket # 299-15, at PTX-044.0107.
Dr. Wolfe testified that Figure 7 shows how Pepcid
Complete meets the “immediate” part of the claim
limitation because it shows that the mean pH in the
esophagus rose rapidly within the first five minutes for
participants who took the famotidine-antacid combination
(i.e., the bold solid line). See Docket # 225, at 26-27 (Jury
Trial Day 3 Tr.). Accordingly, Brigham argues that
Figure 7 establishes “that the active ingredients in the
tested famotidine-antacid combination [FACT] provided
increased esophageal pH (i.e., lower acidity) within 5–10
minutes of dosing—faster than when famotidine is used
alone.” Docket # 334, at 10.

40a
Appendix B
Dr. Wolfe further testified that the label for Perrigo’s
Generic Product, which states that its product was
“Proven Effective In Clinical Studies,” Docket # 299-6,
at DTX-0493-0014, is based on “the same exact data [as
Pepcid Complete],” Docket # 225, at 23:23 (Jury Trial Day
3 Tr.). Thus, it argues, because Pepcid Complete provides
the relief as described in the ’137 patent, so, too, does
Perrigo’s Generic Product. This was in essence Brigham’s
bioequivalence argument. See Janssen Pharmaceutica,
N.V. v. Apotex, Inc., 540 F.3d 1353, 1356 (Fed. Cir. 2008)
(citations omitted) (“Generic drug companies are not
required to conduct their own independent clinical trials
to prove safety and efficacy, but can instead rely on
the research of the pioneer pharmaceutical companies.
However, in order to rely on the research of the pioneer
pharmaceutical companies, an ANDA applicant is
required to show bioequivalence of its generic drug to
the NDA drug.”).
However, the NDA explains that in Study 098 “[a]n
episode of acidic reflux was counted as a drop from pH 5
or more to 4 or below,” Docket # 299-15, at PTX- 044.0107.
This is consistent with testimony from Perrigo’s expert
witness, Dr. Annunziata, who testified that esophageal pH
of 4 or less indicates “symptoms from episodic heartburn.”
Docket # 229, at 61–62 (Jury Trial Day 6 Tr.). In Figure 7,
the line representative of participants who took FACT—
the bold line—shows that none of those participants ever
had esophageal pH of 4 or less. Moreover, “neither the
occurrence nor severity of heartburn or other symptoms
. . . were recorded on the case reports forms [in Study 098]
and no analyses were done to correlate those observations

41a
Appendix B
with the pH recordings.” Docket # 299-15, at PTX044.109. Thus, this graph did not prove that participants
were provided immediate relief “from pain, discomfort
and/or symptoms associated with episodic heartburn” as
required by claim 1 of the ’137 patent.
A lthough Brigham did present data involving
symptom relief studies, see e.g., Docket # 299-17, at PTX044.0138, those studies compared “time to adequate relief”
measured at 15-minute intervals, which Brigham’s expert
testified encompasses relief obtained within 5–10 minutes.
See Docket # 225, at 15–16 (Jury Trial Day 3 Tr.). Dr.
Wolfe agreed that the symptom relief studies, however,
involved “different parameters” from the patent. Id. at 16.
Thus, Figure 7 was the only evidence Brigham presented
in support of its argument that Pepcid Complete—and
therefore the Generic Product—meets the “immediate”
limitation of claim 1. Because Brigham cannot prove
that its product, Pepcid Complete, reads on all the claim
limitations of the ’137 patent, it cannot, as a matter of
law, establish that Perrigo’s Generic Product infringes.
Accordingly, no reasonable jury could have found direct
infringement and Perrigo is entitled to judgment as a
matter of law on direct infringement.
Further, because Brigham failed to prove direct
infringement of claim 1, it necessarily follows that
Brigham cannot prove direct infringement of the
remaining dependent claims 4, 5, 6, and 12 of the ’137
patent. Without proof of direct infringement, Perrigo is
also entitled to judgment as a matter of law of on indirect

42a
Appendix B
or willful infringement.10 See Molinaro v. Fannon/Courier
Corp., 745 F.2d 651, 654 (Fed. Cir. 1984) (“Where there
is no direct infringement, there is nothing to which
the accused products could ‘contribute.’”); Limelight
Networks, Inc. v. Akamai Techs., Inc., 134 S. Ct. 2111,
2117 (2014) (“[I]nducement liability may arise “if, but
only if, [there is] . . . direct infringement.” (quoting Aro
Mfg. Co. v. Convertible Top Replacement Co., 365 U.S.
336, 341 (1961)); SynQor, Inc. v. Artesyn Technologies,
Inc., 635 F. App’x 891, 894–95 (Fed. Cir. 2015) (finding
that it was appropriate for district court to decline to find
willful infringement when the district court was correct
to determine that defendant did not directly infringe).
C.

Invalidity

As an initial matter, Perrigo contends that the jury
erred in its finding that the priority date was March
1990, which, it argues, ultimately “tainted the verdict
by preventing the jury from considering WO 92/00102 to
Davis (“Davis”), which clearly and convincingly shows the
’137 patent is anticipated.” Docket # 301, at 7. In support,
Perrigo argues that Brigham failed to corroborate the
earlier priority date, and instead, relied merely on the
inventor’s testimony and his unwitnessed laboratory
notebooks.
10. Accordingly, in the event that the grant of judgment as
a matter of law on infringement is overruled on appeal, Perrigo’s
motion for a new trial on infringement is warranted because “the
jury’s verdict is against the clear weight of the evidence.” Newell
Puerto Rico, Ltd. v. Rubbermaid Inc., 20 F.3d 15, 22 (1st Cir. 1994)
(citing Kearns v. Keystone Shipping Co., 863 F.2d 177, 181 (1st Cir.
1988)).

43a
Appendix B
Corroboration is required when a patentee tries to
prove that the conception date was earlier than the filing
date of his patent application. See Procter & Gamble
Co. v. Teva Pharm. USA, Inc., 566 F.3d 989, 999 (Fed.
Cir. 2009) (“The inventor ‘must provide independent
corroborating evidence in addition to his own statements
and documents.’” (quoting Hahn v. Wong, 892 F.2d 1028,
1032 (Fed. Cir. 1989)). Brigham emphasizes that the
laboratory notebooks were admitted into evidence and as
such, a reasonable jury could find that they were reliable
to corroborate Dr. Wolfe’s testimony and to sufficiently
establish the earlier priority date. Although Dr. Wolfe’s
laboratory notebooks were admitted into evidence,
they were unwitnessed. Accordingly, as a matter of
law, Brigham is not entitled to the earlier priority date.
See Proctor & Gamble Co., 566 F.3d at 998–99 (finding
that inventor’s unwitnessed notebook was not adequate
corroborating evidence of an earlier invention date).
1.

Anticipation

Nevertheless, Perrigo is not entitled to judgment as
a matter of law on invalidity because it has failed to show
by clear and convincing evidence that Davis anticipates
the ’137 patent. See Microsoft Corp. v. i4i Ltd. P’ship, 564
U.S. 91, 95 (2011). “A patent claim is anticipated if a single
prior art reference expressly or inherently discloses every
limitation of the claim.” DDR Holdings, LLC v. Hotels.
com, L.P., 773 F.3d 1245, 1252 (Fed. Cir. 2014).
Davis is a patent that discloses the “[c]o-administration
of a histamine H2-receptor antagonist and antacid for

44a
Appendix B
the treatment of gastric disorders.” Docket # 301-9, at
1. Perrigo, however, does not point to any evidence from
its affirmative case to support its burden of showing
that Davis discloses the limitation of “immediate and
sustained relief” as defined in the ’137 patent. See Novo
Nordisk A/S v. Caraco Pharm. Labs, Ltd., 719 F.3d 1346,
1353 (Fed. Cir. 2013) (“[T]he burden of persuasion [as to
invalidity] remains with the challenger during litigation
because every issued patent is entitled to a presumption
of validity.”). Dr. Tornay, defendants’ expert, testified
that Davis meets this limitation because it discusses “the
rationale [] for the coadministration being rapid relief
and the combination with the H2-receptor antagonist
independently, so that by combining the effects of the two
drugs, the immediate and the sustained relief, that that
meets that claim.” Docket # 232, at 87:12–16 (Jury Trial
Day 5 Tr.). But this is not enough. Dr. Tornay failed to
point to any portion of the Davis reference that specifically
discloses that co-administration of an H2-receptor
antagonist and antacid would provide relief within about
5–10 minutes following ingestion of the active ingredients
and continues for at least about 4–6 hours. Nor does
he explain how Davis discloses the limitation that the
combined administration provides relief that lasts longer
in duration than when a human is orally treated with the
antacid alone. Thus, although Davis may have disclosed
generally the oral co-administration of H2-receptor
antagonists and antacids with high acid-neutralizing
capacity, there is insufficient evidence to clearly and
convincingly find that Davis discloses the “immediate and
sustained relief” limitation in claim 1. Because there is
substantial evidence to support a finding that Davis fails

45a
Appendix B
to anticipate claim 1, there is also substantial evidence to
support the jury’s finding that Davis does not anticipate
any of the asserted dependent claims.11
2.

Obviousness

An invention cannot be patented if the subject matter
would have been obvious at the time of the invention.
Perrigo bears the burden to show by clear and convincing
evidence that a person skilled in the art would have (1)
been motivated to combine the teachings of the prior art
references to achieve the claimed invention; and (2) had a
reasonable expectation of success in doing so. Pfizer, Inc.
v. Apotex, Inc., 480 F.3d 1348, 1361 (Fed. Cir. 2007). “The
obviousness determination turns on underlying factual
inquiries involving: (1) the scope and content of prior
art, (2) differences between claims and prior art, (3) the
level of ordinary skill in pertinent art, and (4) secondary
considerations such as commercial success and satisfaction
of a long-felt need.” Procter & Gamble Co., 566 F.3d at 994
(citing Graham v. John Deere Co., 383 U.S. 1, 17 (1966)).
Here, “both parties submitted proposed jury verdict forms
that did not include interrogatories or otherwise request
specific factual findings [on the obviousness analysis].
Accordingly, the verdict form submitted to the jury asked
for a verdict on the ultimate issue of obviousness with
respect to each claim at issue, without requiring specific
factual findings.” Abbott GmbH & Co., KG v. Centocor
Ortho Biotech, Inc., 971 F. Supp. 2d 171, 182 (D. Mass.
2013).
11. For the same reason, Perrigo’s motion for a new trial as
to invalidity is unwarranted.

46a
Appendix B
The parties agreed that a person of ordinary skill in
the art at the time of the filing of the application that led
to the ’137 patent “would include someone with a graduate
degree in pharmacy, pharmaceutics, biopharmaceutics
or a doctorate in medicine or osteopathic medicine,
and at least two years academic, industry, or clinical
experience in such fields.” Docket # 299-3, at 3. The jury
was instructed on this definition. Thus, there is no factual
dispute as to the level of ordinary skill in the art.
In addition to Davis, the prior art references submitted
into evidence at trial include: French ’933 patent (DTX140, Docket # 299-4); French ’103 patent (DTX-52,
Docket # 301-6); Donn Article (DTX-51, Docket # 301-5);
Desager Article (DTX-88, Docket # 301-7); 1990 PDR
including Zantac (DTX-466, Docket # 301-10); 1990 PDR
referencing Pepcid Complete (DTX-470, Docket # 301-11);
and the Mihaly Article (DTX-7, Docket # 301-4). “The
scope and content of the prior art are factual questions
to be determined by the jury.” Kinetic Concepts, Inc. v.
Blue Sky Med. Group, Inc., 554 F.3d 1010, 1019 (Fed. Cir.
2009) (citing Graham, 383 U.S. at 17).
Similar to the shortcoming of Davis, none of the
prior art references disclosed the key limitation found
in claim 1, namely, the “immediate and sustained relief”
limitation. Again, Dr. Tornay testified that these prior
art references meet the “immediate and sustained relief”
limitation because each reference generally teaches
that co-administration of antacid with an H2-receptor
antagonist will provide rapid and sustained relief. See
Docket # 232, at 71, 83, 87, 92, 95–97, 101–03 (Jury Trial

47a
Appendix B
Day 5 Tr.). But defendants’ expert witness failed to point
out where specifically the limitation of “immediate and
sustained relief” as defined under the ’137 patent—that
is, “relief obtained from pain, discomfort and/or symptoms
associated with episodic heartburn which starts within
about 5–10 minutes following ingestion of the active
ingredients and continues for at least about 4–6 hours” is
disclosed in these prior art references, or explain how the
prior art in combination would make this claim limitation
obvious to a person of skill in the art at the relevant time
when none of the prior art references contained symptom
relief data. “[G]eneral and conclusory testimony ‘does not
suffice as substantial evidence of invalidity.’” NewRiver,
Inc. v. Newkirk Products, Inc., 674 F. Supp. 2d 320, 330
(quoting Koito Mfg. Co., Ltd. v. Turn-Key-Tech, LLC,
381 F.3d 1142, 1152 (Fed. Cir. 2004)). Accordingly, the
jury’s verdict of nonobviousness for claim 1 (and thereby
all dependent claims 4, 5, 6, 7, and 12) is supported by
substantial evidence.
D.

Damages

Since Perrigo is entitled to judgment as a matter
of law on Brigham’s claims for infringement, the jury’s
award of damages cannot stand.12 See CVI/Beta Ventures,
12. In the event that the grant of judgment as a matter of law
on infringement is overruled on appeal, Perrigo’s motion for a new
trial on damages is unwarranted. “[T]he jury’s damages award
‘must be upheld unless the amount is grossly excessive or monstrous,
clearly not supported by the evidence, or based only on speculation or
guesswork.’” Monsanto Co. v. Ralph, 382 F.3d 1374, 1383 (Fed. Cir.
2004) (quoting Brooktree Corp. v. Advanced Micro Devices, Inc., 977
F.2d 1555, 1580 (Fed. Cir.1992)). Here, Perrigo argues that Brigham

48a
Appendix B
Inc. v. Tura LP, 112 F.3d 1146, 1149 (Fed. Cir. 1997).
Relatedly, Brigham’s motion to alter judgment to award
pre-judgment interest is moot.
failed to present substantial evidence in support of a 3.5 cents pertablet royalty (or 18% royalty rate) because “all actual licenses to
the ’137 patent have been structured as a percent of net sales, not
per tablet,” Docket # 340, at 17. During the trial, Brigham’s expert,
Philip Green, testified that a hypothetical negotiation to determine
patent damages assumes validity and infringement. Docket # 226,
at 59:18–22 (Jury Trial Day 6 Tr.). He reasoned that “a per-unit
royalty would be appropriate because . . . the use of the patent
technology is when somebody actually takes the pill. That’s when
the infringement occurs. So, for the use made struck [him] as being
on a per-pill basis,” id. at 27:17–23. He explained that the date of the
hypothetical negotiation would have occurred in 2008, when Perrigo
first launched its Generic Product. Green agreed that the royalty
rates in the four other licenses to the ’137 patent were between one
to three percent, id. at 71:23–72:1, but testified that Perrigo would
have paid a higher royalty rate because at the time of the hypothetical
negotiation Pepcid Complete had already been developed and on
the market, and thus Perrigo bore less risk in developing a generic
product. id. at 59:15–60:10. He further testified that he reviewed
two sets of projections prepared by Perrigo in 2005/2006 and 2008
to determine “how much money would Perrigo be able to pay and
still earn its normal rates of return based on these models,” id. at
51:25–52:2. Based on these projections, he opined that Perrigo would
have gone into the hypothetical negotiation in 2008 knowing that “it
could afford to pay somewhere between . . . 2.9 cents and 10.7 cents
[per tablet] . . . as a royalty to be able to have rights to the ’137 patent.”
id. at 55:1–4. Ultimately, “[he] concluded that their royalty rate of
3 ½ cents made sense in all of all [sic] these data points,” id. at 59:4–6.
Perrigo did not object or cross-examine Green on this portion of his
testimony, and thus waived its argument that Perrigo’s projections
were not in evidence. See Lucent Technologies, Inc. v. Gateway, Inc.,
580 F.3d 1301, 1325 (Fed. Cir. 2009). Thus, the evidence supports a
per-tablet royalty of $10,210,071.

49a
Appendix B
V. Conclusion
Brigham’s Motion for Leave to File Sur-Reply (Docket
# 343) is ALLOWED.
Perrigo’s Renewed Motion for Judgment as a
Matter of Law of No Direct, No Indirect, and No Willful
Infringement and Motion for a New Trial (Docket # 298)
is ALLOWED in its entirety.
Perrigo’s Renewed Motions for
(a) Judgment of Invalidity as a Matter of Law
or New Trial and Motion for Judgment of
Invalidity Over the Prior Art (Docket #
300); and
(b) Judgment as a Matter of Law on Lack of
Standing (Docket # 306) are DENIED.
Brigham’s Motion to Alter Judgment to Award
Prejudgment Interest (Docket # 344) and Perrigo’s
Renewed Motion for Judgment as a Matter of Law on
Damages, and Motion for Remittitur or New Trial (Docket
# 303) are DENIED AS MOOT.
Final judgment consistent with this opinion shall
enter. Counsel shall jointly submit a proposed form of
judgment on or before December 4, 2017.

50a
Appendix B
November 17, 2017		
/s/Rya W. Zobel
DATE				RYA W. ZOBEL
				SENIOR UNITED STATES
				DISTRICT JUDGE

51a
C the united
Appendix c —Appendix
order of
states court of appeals for the
federal circuit, filed august 2, 2017
United States Court of Appeals
for the Federal Circuit
2017-1950, -2021
BRIGHAM AND WOMEN’S HOSPITAL, INC.
and INVESTORS BIO-TECH, L.P.,
Plaintiffs-Appellees,
v.
PERRIGO COMPANY, L. PERRIGO COMPANY,
Defendants-Appellants.
August 2, 2017, Decided
Appeals from the United States District Court for
the District of Massachusetts in No. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
ON MOTION
Before Newman, Wallach, and Stoll, Circuit Judges.
Wallach, Circuit Judge.
ORDER
The appellees move for panel reconsideration of this
court’s June 21, 2017 order denying the appellees’ motion

52a
Appendix C
to dismiss, consolidating the above-captioned appeals,
and deactivating the appeals because of pending postjudgment motions. The appellants oppose the motion.
I. Background
Although the June 2017 order detailed the procedural
history of these appeals, we repeat the facts essential to
resolving this motion for ease of the panel and the reader.
This is a patent infringement case in which the
appellees’ complaint included a claim for enhanced
damages pursuant to 35 U.S.C. § 284. On December 14,
2016, the jury returned a verdict in favor of the appellees
on infringement and invalidity. On December 19, 2016,
judgment was entered without specifying the amount of
damages that was owed by the appellants.
On January 24, 2017, the appellants moved for
judgment as a matter of law (JMOL) or a new trial
under Rules 50(d) and 59(d) of the Federal Rules of Civil
Procedure. The appellees moved for enhanced damages
and attorneys’ fees and opposed the appellants’ motions
on the ground that they had not been timely filed. In
response, on February 17, 2017, the appellants moved for
an extension of time to file an appeal and noticed an appeal,
which was subsequently docketed as Appeal No. 2017-1950.
On April 24, 2017, the district court resolved the
parties’ post-trial motions, including the appellees’ motion
for enhanced damages. As to the appellants’ motions, the
district court agreed with the appellees that the motions

53a
Appendix C
had not been timely filed because they were filed more
than 28 days after the judgment. The district court also
denied the appellants’ motion to extend time to file an
appeal from the December 2016 judgment. On May 11,
2017, the appellants filed an amended notice of appeal,
which was docketed as Appeal No. 2017-2021.
The appellees moved to dismiss Appeal No. 1950 and
to limit the issues in Appeal No. 2017-2021, arguing that
the appellants could not seek review of the underlying
infringement and invalidity determinations. They
contended that the appellants failed to file a timely appeal
from the December 2016 judgment and also failed to file
timely motions that would toll the time to appeal.
On June 21, 2017, this court issued a single-judge
order denying that motion. The order explained that the
December 2016 judgment was not a final judgment because
the enhanced damages claim remained unresolved. The
order further explained that while the appellants could
have appealed the judgment as an interlocutory appeal
because it was final “except for an accounting,” the
appellants’ failure to do so did not preclude review of the
liability issues after entry of final judgment.
Because there were pending motions that challenged
the judgment on appeal, the court deactivated the case
until the district court resolved those motions.

54a
Appendix C
II. This Court’s June 21, 2017 Order Was Not
Procedurally Improper as a Single-Judge Decision
Rule 27(c) of the Federal Rules of Appellate Procedure
provides that a single judge “may not dismiss or otherwise
determine an appeal.” An order denying a motion to
dismiss and allowing an appeal to ultimately proceed to
the merits panel clearly does not fall into one of those
categories. See, e.g., Fieldturf, Inc. v. Sw. Recreational
Indus., Inc., 357 F.3d 1266, 1268 (Fed. Cir. 2004) (citing
Fed. R. App. P. 27(c) and Nilssen v. Motorola, Inc., 203
F.3d 782, 785 n.2 (Fed. Cir. 2000)); Fort James Corp. v.
Solo Cup Co., 412 F.3d 1340, 1345-46 (Fed. Cir. 2005). The
Advisory Committee Notes do not suggest otherwise.
They state that a single judge may “entertain and act upon
any motion other than a motion to dismiss or otherwise
determine an appeal or other proceeding.” Here, the June
21, 2017 did not “act upon” the motion in the relevant sense
in that it did not dismiss the appeal.
III. The December 2016 Judgment Was Not a Final
Judgment Ending the Litigation on the Merits
While “the court may review the action of a single
judge,” Fed. R. App. P. 27(c), the appellees also fail to
provide any basis to question the prior order’s conclusion.
The appellees argue that the December judgment
“end[ed] the litigation on the merits,” Mot. at 7, and thus
the appellants are entirely precluded from seeking review
of the liability issues because they failed to file a notice
of appeal within 30 days from the entry of that judgment

55a
Appendix C
and failed to file a timely motion that would toll the clock
from running. They contend that “the District Court and
the parties intended the December Judgment to be a final
judgment” and that “[g]iven the District Court’s clear
intent, finality would not be affected even if the District
Court failed to expressly rule on all of [the appellees’]
claims.” Id. The appellees further argue that “the fact
that [the appellees] could bring a post-verdict request to
‘enhance’ the damages award does not impact the finality
of a judgment that resolves liability and damages.” Id.
Section 1295(a)(1) of the title 28 authorizes this
court to review “final decisions” of the district courts,”
those that “end[] the litigation on the merits and leave[]
nothing for the court to do but execute judgment.” Catlin
v. United States, 324 U.S. 229, 233, 65 S. Ct. 631, 89 L.
Ed. 911 (1945) (citation omitted). A “final decision” within
the meaning of section 1295(a)(1) is one where the district
court has resolved all damages issues. See Mendenhall
v. Barber-Greene Co., 26 F.3d 1573, 1581 (Fed. Cir. 1994)
(“A judgment on an appeal under § 1292(c)(2) allowing
interlocutory appeals of liability judgments in patent
cases does not end the litigation.”); see also Calderon v.
GEICO Gen. Ins. Co., 754 F.3d 201, 204-06 (4th Cir. 2014)
(holding no final judgment where damages were not fixed
because the assessment of damages is part of the merits
of the claim); Ariz. State Carpenters Pension Tr. Fund
v. Miller, 938 F.2d 1038, 1040 (9th Cir. 1991) (noting that
there was no final judgment where punitive damages count
was unresolved because the “punitive damages count
and [the] compensatory damage counts are ‘inextricably
intertwined’”).

56a
Appendix C
Contrary to the appellees’ arguments, enhanced
damages are not collateral to the judgment akin to attorney
fees. The source of authority to award damages is the same
source of authority that authorizes enhanced damages.
See 35 U.S.C. § 284 (“Upon finding for the claimant the
court shall award the claimant damages adequate to
compensate for the infringement . . . . When the damages
are not found by a jury, the court shall assess them. In
either event, the court may increase the damages up to
three times the amount found or assessed.”). Moreover,
the resolution of a claim for enhanced damages in favor of
the patentee, unlike a pending matter of attorney fees, has
the effect of altering or amending the judgment. We have
accordingly treated enhancement as part of the accounting
of damages. See PODS, Inc. v. Porta Stor, Inc., 484 F.3d
1359, 1365 n.4 (Fed. Cir. 2007).
The appellees cite Pyle Nat. Co. v. Lewin, 92 F.2d 628,
629 (7th Cir. 1937) in support of a “long-standing” contrary
rule. If anything, however, that case confirms, rather
than undermines, the conclusion that enhancements are
part of the merits of the case. In Pyle, the defendants
appealed from the trial court’s order determining that
the patents were valid and that treble damages should be
awarded before conducting accounting of the profits and
damages. In other words, the defendants were appealing
from an interlocutory decision that was “final except for
an accounting,” § 1292(c)(2), not one that “end[ed] the
litigation.” Mendenhall, 26 F.3d at 1580.
In Pyle, the Seventh Circuit merely held that
the appropriate procedure was for the trial court to

57a
Appendix C
determine the issue of enhancement “in connection with
the accounting [of damages] and not before.” 92 F.2d at
632; see also id. at 631-32 (“We are of the opinion that such
increase should not be allowed until after an accounting
has been had. This evidently is what this Court had in
mind in Pollock v. Martin Gauge Co., 261 F. 201, on page
202, where it is said: ‘But whether damages in excess of
the compensatory damages shall be awarded, as well as
the amount thereof, must be determined by the District
Court upon the accounting.’”). It does not suggest, let alone
hold, that enhancements are collateral to the judgment.
The appellees contend that the district court and
the parties’ intentions with respect to finality should be
treated as “controlling” even if the enhancement claim
remained pending. Mot. at. 7. According to the appellees,
“[i]f a district court intends to enter a final judgment but
overlooks or fails to address all issues in the action, the
finality of the judgment is not affected. Rather, it is the
obligation of the parties to file a timely post-trial motion
or Notice of Appeal to correct that error.” Mot. at. 9-10
(emphasis omitted). In support of their contention that
the district court and the parties all intended for the
December judgment to resolve all merits in the case, the
appellees note the district court initially closed the case
and the parties referred to the judgment as final. Id. at. 11.
T he appel lees’ a rg ument f unda ment a l ly
misunderstands the final judgment rule and this court’s
own “special obligation” to ensure that it has jurisdiction
over a case. Bender v. Williamsport Area Sch. Dist., 475
U.S. 534, 541, 106 S. Ct. 1326, 89 L. Ed. 2d 501 (1986);

58a
Appendix C
cf. Workman v. Bredesen, 486 F.3d 896, 904 (6th Cir.
2007) (“While we generally do not have jurisdiction to
review temporary restraining orders, our jurisdiction is
not controlled by the name that a claimant attaches to a
motion or the name that a district court attaches to an
order. Rather than looking to the label attached by the
trial court, we look[ ] to the nature of the order and the
substance of the proceeding below to determine whether
the rationale for denying appeal applies.” (citation and
internal quotation marks omitted)).
In any event, the record belies the notion that the
district court and the parties treated the December
judgment as anything other than “final except for an
accounting.” The district court characterized the order in
those terms. See District Court’s April 24, 2017 Order at
5 (“Therefore, the only matter that remains outstanding
is the issue of enhanced damages. [ ] The Federal Circuit,
however, has exclusive jurisdiction over an appeal “of
an appeal from a judgment in a civil action for patent
infringement which would otherwise be appealable to
the [Federal Circuit] and is otherwise final except for an
accounting.”). Moreover, the appellees themselves did not
treat the case as if the litigation had ended on the merits,
as they soon thereafter asked the court to award enhanced
damages.
The appellees cite in support Moreau v. Harris
County, 158 F.3d 241 (5th Cir. 1998), Cox v. United States,
783 F.3d 145 (2d Cir. 2015), and Pandrol USA, LP v.
Airboss Railway Products, Inc., 320 F.3d 1354 (Fed. Cir.
2003); these cases are easily distinguishable. In each case,

59a
Appendix C
the district court actually disposed of all claims in the case.
In Moreau, the appellant had abandoned the only claim
that was not expressly addressed by the district court. 158
F.3d at 244. In Cox, the district court expressly dismissed
all claims although its reasoning was incorrect as to some
of the claims. 783 F.3d at 147-48. And in Pandrol, the
district court found that the defendants had effectively
waived their counterclaims. 320 F.3d at 1362. This case
clearly differs from Cox, Moreau, and Pandrol. Unlike in
Moreau and Pandrol, the appellees here did not abandon
or waive their enhanced damages claims. To the contrary,
they pressed their claims before and after the December
2016 judgment. And unlike Moreau, Cox, and Pandrol,
the district court here did not express any indication that
it had finally resolved all damages issues.
IV. Failure to Timely File an Interlocutory Appeal
Does Not Preclude Review of Liability Issues after
Entry of a Final Judgment
The confusion here appears to stem from the fact
that the appellants initially tried but failed to file a
timely interlocutory appeal under § 1292(c)(2). That,
however, does not alter the fact that the appellants still
are allowed to seek review of such determinations once a
final judgment in the case has been entered.
It is well established as a general rule that parties are
allowed to wait for a final judgment to raise all claims of
error in a single appeal even though interlocutory appeal
was permitted. See Brownlee v. DynCorp., 349 F.3d 1343,
1348-49 (Fed. Cir. 2003) (citing 16 Charles Alan Wright

60a
Appendix C
et al., Federal Practice and Procedure § 3921, at 20 n.27
(2d ed. 1996) and cases from other courts).
That rule applies with equal force to situations where
a party could have appealed under § 1292(c)(2). See DNIC
Brokerage Co. v. Morrison & Dempsey Comm’cns Inc.,
No. 90-1389, 1991 U.S. App. LEXIS 33748, 1991 WL
335745, at *1 (Fed. Cir. Apr. 25, 1991); see also Bingham
Pump Co. v. Edwards, 118 F.2d 338, 339 (9th Cir. 1941)
(rejecting “suggestion that the question as to the validity
of the patent is not open because of a failure to appeal from
the interlocutory decree as permitted by” the predecessor
statute of § 1292(c)(2)).
We see no reason to treat an appellant who initially
tried but failed to file a timely permissive interlocutory
appeal differently than one who simply waited until final
judgment to raise all claims of error in one appeal.
V. The Appeals are Deactivated, Not Remanded
The appellees mischaracterize this court’s June 21,
2017 order as having remanded the case back to the
district court; the order did no such thing. The appellants
informed this court that at the district court they had
filed motions listed under Rule 4(a)(4) of the Federal
Rules of Appellate Procedure within 28 days from the
date the district court issued its April 24, 2017 order, and
currently the motion remains pending. Per the court’s
usual practice, these appeals were deactivated, as such
motions ordinarily render an appeal from a final judgment
premature until the motions are acted upon. The court
rendered no judgment on the merits of the arguments
raised in that motion.

61a
Appendix C
Accordingly,
It Is Ordered That:
The motion is denied.
For the Court
/s/ Peter R. Markstein
Peter R. Marksteiner
Clerk of Court

62a
APPENDIX D —Appendix
ORDER D
OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JUNE 21, 2017
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-1950, 2017-2021
BRIGHAM AND WOMEN’S HOSPITAL, INC.,
INVESTORS BIO-TECH, L.P.,
Plaintiffs-Appellees,
v.
PERRIGO COMPANY, L. PERRIGO COMPANY,
Defendants-Appellants.
June 21, 2017, Decided
Appeals from the United States District Court for
the District of Massachusetts in No. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
ON MOTION
Before WALLACH, Circuit Judge.
ORDER
The appellees move to dismiss Appeal No. 2017-1950
for lack of jurisdiction and to “limit the issues for review

63a
Appendix D
on appeal” in Appeal No. 2017-2021. The appellants oppose
and move to consolidate the above-captioned appeals.
The appellees oppose consolidation. The appellants also
inform the court of post-judgment motions pending at the
district court. The court denies the motion to dismiss and
to limit the issues, grants the motion to consolidate, and
deactivates these appeals.
This is a patent infringement case in which the
appellees’ complaint included a claim for enhanced
damages pursuant to 35 U.S.C. § 284. On December 14,
2016, the jury returned a verdict in favor of the appellees
on infringement and invalidity. On December 19, 2016,
judgment was entered without specifying the amount of
damages that was owed by the appellants.
On January 24, 2017, the appellants moved for
judgment as a matter of law (JMOL) or a new trial
under Rules 50(d) and 59(d) of the Federal Rules of Civil
Procedure. The appellees moved for enhanced damages
and attorneys’ fees and opposed the appellants’ motions
on the ground that they had not been timely filed. In
response, on February 17, 2017, the appellants moved for
an extension of time to file a notice of appeal and also filed
a notice of appeal, which was subsequently docketed as
Appeal No. 2017-1950.
On April 24, 2017, the district court resolved the
parties’ post-trial motions, including the appellees’ motion
for enhanced damages. As to the appellants’ motions, the
district court agreed with the appellees that the motions
had not been timely filed because they were filed more

64a
Appendix D
than 28 days after the judgment. The district court also
denied the appellants’ motion to extend time to file an
appeal from the December 2016 judgment. On May 11,
2017, the appellants filed a second notice of appeal, which
was docketed as Appeal No. 2017-2021.
The appellees argue that the appellants cannot
seek this court’s review of the underlying infringement
and invalidity determinations. They contend that the
appellants failed to file a timely appeal from the December
2016 judgment and also failed to file timely Rule 50 and
Rule 59 motions that would toll the time to appeal.
There was, however, no final judgment in December
2016; a full accounting of the damages remained
outstanding because the issue of enhanced damages had
not been resolved. See PODS, Inc. v. Porta Stor, Inc., 484
F.3d 1359, 1365 n.4 (Fed. Cir. 2007); see also Calderon
v. GEICO Gen. Ins. Co., 754 F.3d 201, 204 (4th Cir. 2014)
(“[A] judgment on liability that does not fix damages is not
a final judgment because the assessment of damages is
part of the merits of the claim that must be determined.”
(citation and quotation marks omitted)); Pause Tech.
LLC v. TiVo, Inc., 401 F.3d 1290, 1292 (Fed. Cir. 2005)
(stating that a “final judgment” is a decision that “‘ends
the litigation on the merits and leaves nothing for the
court to do but execute the judgment.’”(quoting Catlin v.
United States, 324 U.S. 229, 233, 65 S. Ct. 631, 89 L. Ed.
911 (1945))).
The district court’s denomination of the December
2016 judgment as a “final judgment” in the April 24,

65a
Appendix D
2017 order is not controlling. See Calderon, 754 F.3d
at 204 (citation omitted). Nor is it dispositive that the
appellants could have appealed under 28 U.S.C. § 1292(c)
but failed to timely do so. While § 1292(c) permits appeals
of patent infringement judgments that are “final except
for an accounting,” such an appeal “is permissive, not
mandatory.” DNIC Brokerage Co. v. Morrison & Dempsey
Comm’cns Inc., No. 90-1389, 1991 U.S. App. LEXIS 33748,
1991 WL 335745, at *1 (Fed. Cir. Apr. 25, 1991) (citing
Adamian v. Jacobsen, 523 F.2d 929 (9th Cir. 1975)). What
matters is that they filed a timely appeal once all the issues
were resolved by the April 24, 2017 decision.
The appellees have not shown that dismissal is
warranted. The appellants inform this court that they
have filed additional Rule 50 and 59 motions, in addition
to motions pursuant to Rule 60 of the Federal Rules of
Civil Procedure, directed at the April 24, 2017 decision.
The court deems it the proper course to deactivate these
appeals pending the district court’s consideration of the
motions. See Practice Notes to Federal Circuit Rule 4.
Accordingly,
It Is Ordered That:
(1) The motions to dismiss and limit the issues are
denied.
(2) The motion to consolidate is granted. The revised
official caption is reflected above.

66a
Appendix D
(3) The appeals are deactivated. Within seven days
from the district court’s decision on appellants’ now
pending post-judgment motions, the parties are directed
to inform this court how they believe these appeals should
proceed.
For the Court
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

67a
Appendix E
APPENDIX E — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MASSACHUSETTS
FILED APRIL 24, 2017
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 13-11640-RWZ
BRIGHAM AND WOMEN’S HOSPITAL, INC.
AND INVESTORS BIO-TECH, L.P.,
v.
PERRIGO COMPANY AND L PERRIGO COMPANY.
APRIL 24, 2017
MEMORANDUM AND ORDER
ZOBEL, S.D.J.
All parties have filed a series of post-judgment
motions. Defendants Perrigo Company and L. Perrigo
Company (collectively, “Perrigo”) renew their motions for
judgment as a matter of law on all issues that were tried
to a jury in late December 2016 and, in the alternative,
move for a new trial. See Dockets ## 247, 249, 252,
255. Perrigo also moves for an extension of time to file
a notice of appeal to the Federal Circuit. See Docket
# 268. Plaintiffs Brigham and Women’s Hospital, Inc., and
Investors Bio-Tech, LP. (collectively, “Brigham”) oppose

68a
Appendix E
all these motions and also move for attorney’s fees (Docket
# 239) and enhanced damages (Docket # 244).
I.

Procedural History

The court held an eight-day jury trial which concluded
on December 14, 2016, with a jury verdict in favor of
plaintiffs. See Docket # 222. Specifically, the jury found (1)
direct, induced, contributory, and willful infringement by
Perrigo of all asserted claims of U.S. Patent No. 5,229,137
(“the ‘137 patent”); (2) an effective priority date of March
1990; and (3) all asserted claims valid. It awarded Brigham
$10,210,071 in damages1 and rejected Perrigo’s laches
defense, finding that Brigham knew or should have known
of their infringement claim against Perrigo as of August
11, 2008.
On December 19, 2016, judgment was entered that
simply stated that “[t]his action came before the court
for a trial by jury. The issues have been tried and the
jury has rendered its verdict. . . . Judgment entered for
Plaintiffs.” See Docket # 227. 2 The amount of damages
was not included. Shortly after judgment entered, the
1. The jury declined to award pre-judgment interest, and
accordingly, the judgment does not reflect any such award. Therefore,
I reject Perrigo’s perplexing argument that the “12/19 Entry [should
be vacated under Rule 60(b)(1) because it] incorrectly awarded prejudgment interest to the Plaintiffs.” Docket # 2781 at 6.
2. That same day, the docket has an entry that the “Civil Case
Terminated” on December 19, 2016. See Docket # 228. Neither party
objected to either of these docket entries.

69a
Appendix E
parties filed a joint motion for extension of time for posttrial motions, seeking to extend the deadlines to file
motions for judgment as a matter of law and/or new trial
and motion for attorney’s fees to January 24, 2017, which
the court granted by endorsement. Docket ## 237 and
238. It was only after Brigham filed their oppositions to
Perrigo’s renewed motions for judgment as a matter of
law, however, that the parties raised a potential conflict
with the Federal Rules of Civil and Appellate Procedures
regarding the timeliness of Perrigo’s post-trial motions
and notice of appeal.
II. Discussion
After the parties submitted their post-trial briefing
regarding the timeliness issue, the court raised initial
concerns about the judgment entered on December 19,
2016, specifically, whether it constituted a final judgment
that would trigger the clock on the relevant procedural
rules because it failed to include any damages, as well
as the jury’s special verdict on the several claims and
defenses. It also failed to address the issue of enhanced
damages that had yet to be decided. Accordingly, I
requested the parties to submit supplemental briefing
regarding these questions and, if necessary, the remedy.
See Dockets ## 278 and 279. Thus, before addressing the
post-trial motions, the threshold question to be resolved
is whether a proper judgment was entered in this case.
A.

Final Judgment

A “judgment” under the Federal Rule of Civil
Procedure is “a decree and any order from which an

70a
Appendix E
appeal lies.” Fed. R. Civ. P. 54(a). The Supreme Court has
explained that “there is no statute or rule that specifies
the essential elements of a final judgment, and [the] Court
has held that ‘[n]o form of words and no peculiar formal
act is necessary to evince [the] rendition [of a judgment.]”
United States v. F. & M. Schaefer Brewing Co., 356 U.S.
227, 233 (1958) (quoting United States v. Hark, 320 U.S.
531, 534 (1944)); see also Alloyd Gen. Corp. v. Bldg.
Leasing Corp., 361 F.2d 359, 362 (1st Cir. 1966) (explaining
that a final judgment is one that does not leave the suit
pending for further proceedings and “clearly evidence[s]
the district court’s intention that it shall be its final act
in the case”).
Perrigo contends that the December 19, 2016, entry
is not a final and appealable judgment because it “did not
expressly dispose of Perrigo’s counterclaims of invalidity,
non-infringement, and laches.” Docket # 278, at 3.
Perrigo also argues that the December 19 entry does not
satisfy Federal Rule of Civil Procedure 58 because it is
“incomplete” as it does not “identify which claims of the
asserted patent were found infringed and not invalid and,
as the Court pointed out, is silent on damages.” Id. at 5-6.
Although the judgment lacks the details found on
the jury’s special verdict form, Perrigo’s assertion that
the issues of non-infringement 3 obviousness, and laches
3. Although Perrigo asserts that “the 12/19 Entry did
not expressly dispose of Perrigo’s counterclaims of . . . noninfringement,” it provides argument only regarding its defenses of
obviousness and laches. See Docket # 278, at 3. In any event, I find
the jury’s verdict was complete in addressing non-infringement by
finding infringement on a claim-by-claim basis.

71a
Appendix E
remain outstanding and were not disposed of by the jury’s
verdict is incorrect. Here, the court instructed the jury
to decide all three issues by answering the questions
on the verdict form with no objections from Perrigo.
Indeed, during Perrigo’s closing argument to the jury,
it re-iterated the court’s instruction and explained that
“if [Brigham’s] delay [was] unreasonable and Perrigo
was harmed because of that delay, then there can be no
monetary damages and that’s Perrigo’s equitable defense
of laches.” Docket # 235, at 81:12-15. Perrigo explicitly
acknowledged that the jury would have to decide whether
“plaintiff’s delay [was] unreasonable and was Perrigo
harmed as a result of it.” Id. at 81:24-82:1. Accordingly,
“[t]he instruction [on laches] was not given to seek a
merely advisory verdict on the issue. The jury rejected the
defense.” Simon Prop. Grp., L.P. v. mySimon. Inc., No.
IP 99-1195-C H/G, 2001 WL 66408, at *16 (S.D. Ind. Jan.
24, 2001). Likewise, Perrigo never objected to having the
jury decide the question of obviousness. Here too, the jury
found that Perrigo had failed to prove invalidity of any of
the asserted claims of the ‘137 patent for both obviousness
and anticipation, and thus rejected Perrigo’s counterclaim.
See Connell v. Sears, Roebuck & Co., 722 F.2d 1542, 1547
(Fed. Cir. 1983) (“We hold that it is not error to submit
the question of obviousness to the jury.”); see also Wyers
v. Master Lock Co., 616 F.3d 1231, 1248 (Fed. Cir. 2010).
Therefore, the only matter that remains outstanding
is the issue of enhanced damages. Docket # 275, at 9:15.
The Federal Circuit, however, has exclusive jurisdiction
of “an appeal from a judgment in a civil action for patent
infringement which would otherwise be appealable to the

72a
Appendix E
[Federal Circuit] and is final except for an accounting.”
28 U.S.C. § 1292(c)(2) (emphasis added). “The Federal
Circuit has ruled that, as a result [of the § 1292 exception],
claims for enhancement of damages do not have to be
addressed in order to have a final judgment.” Open Text
S.A. v. Box. Inc., No. 13-cv-04910-JD, 2015 WL 4940798,
at *10 (N.D. Cal. Aug. 19, 2015) (citing PODS. Inc. v. Porta
Star. Inc., 484 F.3d 1359, 1365 n. 4 (Fed. Cir. 2007), appeal
dismissed (Apr. 4, 2016)). Although Perrigo asserts that
the December 19 entry does not qualify for the exception
to the final judgment rule under 28 U.S.C. § 1292(c)(2), it
fails to provide any support for this argument other than
re-asserting that the entry “did not dispose of Perrigo’s
counterclaims of invalidity, non-infringement, and laches,
and thus the § 1292 exception does not apply.” Docket
# 278, at 5.
Moreover, it is difficult to accept in earnest Perrigo’s
argument that the “12/19 Entry [did not] constitute[] a
final and appealable judgment such that it would trigger
the deadlines for filing Perrigo’s post-trial motions and
Notice of Appeal,” Docket # 278, at 2, based on its actions.
In particular, shortly after the jury returned its verdict,
Perrigo sought entry of judgment from the court in order
to “determine deadlines for post-trial motions,” Docket
# 280-2, at 2, and then proceeded to act in accordance
with an understanding that the judgment was final by
submitting post-trial briefing. E.g. Docket # 268, at 1
(explaining in its motion for extension of time to file notice
of appeal that “[t]he Court entered Final Judgment in
favor of Plaintiffs on December 19, 2016.”); cf F. & M.
Schaefer Brewing Co., 356 U.S. at 235-36 (looking at

73a
Appendix E
“[t]he actions of all concerned” when determining whether
the parties “understood the opinion to be the judge’s. . .
final judgment in the case”).
B. Post-Trial Briefing and Defendants’ Motion to
Extend Time to File Notice of Appeal
Because the December 19, 2016, judgment was final,
Perrigo had to adhere to the federal procedural rules
regarding the deadlines for filing post-trial motions.
Specifically, Perrigo had twenty-eight days after the entry
of judgment to file a renewed motion for judgment as a
matter of law or joint request for a new trial. See Fed.
R. Civ. P. 50(b) and 59(b). This deadline is mandatory;
“[a] court must not extend the time to act under Rules
50(b). . . 59(b), (d), and (e), and 60(b).” Fed. R. Civ. P. 6(b)(2).
Perrigo argues that the time limitations in Rules
50(b) and 59(e) are “claim-processing” rules and not
jurisdictional time limitations, and thus, Brigham “waived
their objection to the timeliness of Perrigo’s post-trial
motions when they expressly agreed to and filed a joint
motion to extend the post-trial motion deadlines.” Docket
# 273, at 2. It further contends that the court should apply
the unique circumstances doctrine to excuse Perrigo’s
delay because it acted in reliance on the court’s ruling.
First, whether Brigham waived its objection is
irrelevant because the court did not have the authority
under Rule 6(b)(2) in the first instance to allow the joint
motion extending the Rule 50(b) and 59(e) deadlines.
Second, the court’s granting of the parties’ joint motion

74a
Appendix E
by endorsement was not an affirmative “assurance” from
the court that the parties were in compliance with the
Federal Rules, which prohibits the court from extending
the post-trial briefing deadline. See Garcia-Velazquez v.
Frito Lay Snacks Caribbean, 358 F.3d 6, 10 (1st Cir. 2004)
(explaining that “[t]o the extent [the unique circumstances
doctrine] remains viable, the doctrine ‘applies only where
a party has performed an act which, if properly done,
would postpone the deadline for filing [the] appeal and
has received specific assurance by a judicial officer that
this act has been properly done”‘) (quoting Osterneck v.
Ernst & Whitney, 489 U.S. 169, 179 (1989)). Thus, although
the parties jointly moved to extend the deadline to file
post-trial motions, and although the court granted by
endorsement such a motion, neither the parties nor the
court had the authority to do so per Federal Rule of Civil
Procedure 6(b)(2).4 See Scola v. Beaulieu Wielsbeke, N.V.,
131 F.3d 1073, 1074 (1st Cir. 1997) (finding that the unique
4. The court recognizes that difficulty in reaching this decision
because on its face the rules are divorced from one another; Rules
50(b) and 59(e) make no cross-reference to Rule 6(b)(2). Nevertheless,
it is the duty of counsel to review the Federal Rules in their entirety.
See Dill v. Gen. Am. Life Ins. Co., 525 F.3d 612, 620 (8th Cir. 2008)
(noting that “[a]lthough this is a harsh and unfortunate result for
[defendant], as it relied on the extension granted by the district
court, [defendant] is not without fault—a simple scan of Rule 6(b)
(2) would have provided [defendant] notice that the district court
lacked authority to grant an extension of time to file the Rule 50(b)
motion”) (citation omitted); but see S.O.I.TEC Silicon On Insulator
Tech., S.A. v. MEMC Elect. Materials, Inc., No. 08-cv-292-SLR.
2011 WL 2748725, at *8 (D. Del. July 13, 2011) (applying the unique
circumstances doctrine and allowing a day late-filed Rule 50(b)
motion).

75a
Appendix E
circumstances doctrine did not apply where the court
improperly granted by endorsement an extension of the
Rule 59(e) motion filing deadline). As a result, Perrigo
had until January 17, 2017, to file its renewed motions
for judgment as a matter of law, but filed such motions,
instead, on January 24, 2017.
Similarly, under Federal Rule of Appellate Procedure
4(a)(1)(A), Perrigo had thirty days after the entry of
judgment to file a notice of appeal with the district clerk.
In other words, it had until January 19, 2017, to file its
notice of appeal. Perrigo, however, did not file a notice
of appeal until February 17, 2017. Perrigo now moves to
extend the time to file a notice of appeal for good cause.
See Fed. R. App. P. 4(a)(5). It argues that good cause exists
for the court to grant its extension because “it relied on
the Court’s order setting a post-trial briefing schedule
and Plaintiffs’ agreement with that schedule.” Docket
# 268, at 1.
Setting aside the fact that neither the parties nor the
court had the authority to extend the post-trial briefing
schedule, an extension of post-trial briefing has no effect
on the time to file a notice of appeal. The Federal Rules
of Appellate Procedure require a party to file a notice of
appeal within thirty days after entry of the judgment.
Fed. R. App. P. 4(a)(1)(A). And the rules toll the time
to appeal when a party seeks to file renewed motions
for judgment as a matter of law. The rules state that
“[i]f a party timely files in the district court [a motion for
judgment under Rule 50(b) or a motion for a new trial
under Rule 59], the time to file an appeal runs for all

76a
Appendix E
parties from the entry of the order disposing of the last
such remaining motion.” Fed. R. App. P. 4(a)(4)(A). “[T]he
notice becomes effective to appeal a judgment or order, in
whole or in part, when the order disposing of the last such
remaining motion is entered.” Fed. R. App. P. 4(a)(4)(B)
(i). The 2016 Advisory Committee Notes further explain
that “[a] motion made after the time allowed by the Civil
Rules will not qualify as a motion that, under Rule 4(a)(4)
(A), re-starts the appeal time—and that fact is not altered
by, for example, a court order that sets a due date that is
later than permitted by the Civil Rules, another party’s
consent or failure to object to the motion’s lateness.” Fed.
R. App. P. 4(a)(4)(A) advisory committee’s note to 2016
amendment. Accordingly, Perrigo was required to file
a notice of appeal within thirty days following entry of
the judgment—to which Perrigo never objected until the
court’s inquiry—regardless of the (improper) extension
of a post-trial briefing schedule.
Although a court may extend the time to file a notice
of appeal if the moving party establishes that either good
cause or excusable neglect exists, Perrigo has failed to
establish either grounds for extension. Fed. R. App. P. 4(a)
(5). Good cause exists if the “tardiness in filing a notice of
appeal resulted entirely from external causes.” Mirpuri
v. ACT Mfg., Inc., 212 F.3d 624, 630 (1st Cir. 2000). Here,
there were no external causes. See id. (finding that no
good cause existed to extend notice to appeal where, even
assuming “that the district court’s decision was unclear as
to its finality, the clerk also entered an unambiguous ‘case
closed’ notation on the docket, and the plaintiffs could have
discovered this telltale simply by checking the docket in
person or on-line at any time thereafter”).

77a
Appendix E
Because Perrigo’s post-trial motions and notice of
appeal were filed after the mandatory deadlines, which
the court has no authority to extend, they are denied as
untimely. 5
C.

Brigham’s Motion for Attorney’s Fees

On January 17, 2017, Brigham filed its motion for
attorney’s fees, which was also dilatory and filed well
after the mandatory deadline.6 See Fed. R. Civ. P. 54(d)
(2)B)(i).The Patent Act allows for the court to award
attorney’s fees to the prevailing party in “exceptional
cases.” See 35 U.S.C. § 285. Brigham bears the burden
to establish by a preponderance of the evidence that
this case was “exceptional.” See Octane Fitness, LLC v.
ICON Health & Fitness, Inc., 134 S. Ct. 1749, 1758 (2014).
“[A]n ‘exceptional’ case is simply one that stands out from
others with respect to the substantive strength of a party’s
litigating position (considering both the governing law
and the facts of the case) or the unreasonable manner in
5. In the alternative, Perrigo requests that the court vacate
judgment under Federal Rule of Civil Procedure 60(b)(6) because
“equity strongly favors Perrigo because Plaintiffs initiated and
agreed to an extension of post-trial motions and thus waived any
argument regarding their alleged untimeliness.” Docket # 278,
at 6. For the reasons discussed above, the facts of this case do not
warrant vacating judgment. See Ackermann v. United States, 340
U.S. 193, 199 (1950) (explaining that Rule 60(b)(6) relief is proper
only in “extraordinary circumstances”).
6. However, unlike Rule 50(b) and 59(e) motions, a court may
extend the deadline to file a motion for attorney’s fees, which this
court did by endorsement of the parties’ joint motion for extension
of deadlines. See Docket # 238.

78a
Appendix E
which the case was litigated.” Id. at 1756. The court can
also consider factors such as frivolousness, motivation,
objective unreasonableness, and the need to advance
considerations of compensation and deterrence. Id. at 1756
n.6. After considering the totality of the circumstances,
courts should exercise “equitable discretion” in deciding
whether to award attorney’s fees. Id. at 1756.
Here, under the totality of the circumstances, I find
that this is not an exceptional case. Perrigo investigated
whether it infringed the ‘137 patent, and whether the
patent was valid, and after concluding that it did not
infringe and that the ‘137 patent was invalid, it sent a
Paragraph IV certification to Brigham upon filing an
ANDA. While Perrigo’s invalidity arguments ultimately
failed, its defense of the suit was neither frivolous or
vexatious. Brigham’s own corporate witness, Harry
Barnett, testified that one of the reasons plaintiffs did not
bring suit against Perrigo after receiving the Paragraph
IV certification was because they feared losing royalties
if the ‘137 patent was found invalid. See Docket # 225, at
110:1-9. Brigham also argues that it should be awarded
fees due to Perrigo’s “obstructionist” conduct throughout
trial. Docket # 240, at 24. Both parties vigorously litigated
their respective positions—at times acrimoniously
so—but Perrigo’s behavior did not rise to the level of
litigation misconduct. Because this case is not exceptional,
attorney’s fees are not appropriate.
D.

Brigham’s Motion for Enhanced Damages

Section 284 of the Patent Act also provides that, in a
case of infringement, courts “may increase the damages

79a
Appendix E
up to three times the amount found or assessed.” See 35
U.S.C. § 284. The Supreme Court has instructed that
“[c]onsistent with nearly two centuries of enhanced
damages under patent law, however, such punishment
should generally be reserved for egregious cases typified
by willful misconduct.” Halo Elec. Inc. v. Pulse Elec. Inc.,
136 S. Ct. 1923, 1934 (2016). In other words, “this is not
to say that a jury verdict of willful infringement ought
to result in enhanced damages. Whether the conduct is
sufficiently egregious as to warrant enhancement and
the amount of the enhancement that is appropriate are
committed to the sound discretion of the district court.”
WBIP, LLC. v. Kohler Co., 829 F.3d 1317, 1341 n.13 (Fed.
Cir. 2016). Brigham bears the burden of showing by a
preponderance of the evidence that Perrigo engaged in
such egregious conduct. Halo, 136 S. Ct. at 1934.
Here, the jury found that Perrigo willfully infringed
the ‘137 patent. I do not disturb the jury’s finding. I do find,
however, that Perrigo’s conduct did not rise to the level of
egregiousness meriting an award of enhanced damages.
See Sociedad Espanola de Electromedicina y Calidad.
S.A. v. Blue Ridge X-Ray Co, Inc., No. 1:10-cv-00159-MR,
2016 WL 7473422, at *7 (W.D.N.C. Dec. 28, 2016) (“The
jury’s finding of willful infringement, however, ‘does not
mandate that damages be enhanced, much less mandate
treble damages.”’ (quoting Read Corp. v. Portee. Inc.,
970 F.2d 816, 826 (Fed. Cir. 1992))). Although the various
factors set forth in Read Corp. may be useful to help
determine whether an award of enhanced damages is
warranted, the Supreme Court has cautioned that “there
is no precise rule or formula for awarding damages under
§ 284[.]” Halo, 136 S. Ct. at 1932 (citation omitted); see

80a
Appendix E
also Trustees of Boston Univ. v. Everlight Elec. Co. Ltd.,
No. 12-cv-12326-PBS, 2016 WL 3976617, at *2 (D. Mass.
July 22, 2016) (“[T]he touchstone for awarding enhanced
damages after Halo is egregiousness.”). For the same
reasons discussed above regarding Brigham’s motion
for attorney’s fees, I find that Perrigo’s conduct was not
egregious. Further, the jury’s award of $10,210,071 in
damages is at the high end of the damages sought. The
evidence reflected that prior license agreements to the ‘137
patent used royalty rates between one to three percent.
Brigham’s expert opined that a reasonable royalty rate
equates to approximately eighteen percent, or nearly six
times that in the prior licenses. The jury adopted that
expert’s method of calculation and awarded the full amount
Brigham sought. Under these circumstances, enhanced
damages are inappropriate. Cf. Enplas Display Device
Corp. v. Seoul Semiconductor Co. Ltd., No. 13-cv-05038
NC, 2016 WL 4208236, at *8 (N.D. Cal. Aug. 10, 2016)
(declining to award enhanced damages despite a finding
of willful infringement because “[t]he jury awarded the
maximum amount that. . . [plaintiff] sought. [Plaintiff] has
recovered the full value of its requested relief’).
III. Conclusion
Brigham’s Motion for Attorney Fees (Docket # 239)
and Motion for Enhanced Damages Pursuant to 35 U.S.C.
§ 284 (Docket # 244) are DENIED.
Perrigo’s Renewed Motions for
(a) Judgment as a Matter of Law of No Direct,
No Indirect, and No Willful Infringement, and
Motion for New Trial (Docket # 247),

81a
Appendix E
(b) Judgment of Invalidity as a Matter of Law
or New Trial and Motion for Judgment of
Invalidity Over the Prior Art (Docket # 249),
(c) Judgment as a Matter of Law on Damages,
and Motion for Remittitur or New Trial (Docket
# 252), and
(d) Judgment as a Matter of Law on Lack of
Standing 7 and Laches (Docket # 255) are
DENIED.
Perrigo’s Motion for Extension of Time to 2/17/2017 to
File a Notice of Appeal from the Court’s Final Judgment
(Docket # 268) is DENIED.
Perrigo’s Motion for Leave to File Instanter A Reply
in Support of Their Renewed Motion for Judgment as a
Matter of Law of No Direct, No Indirect, and No Willful
Infringement, and Motion for New Trial (Docket # 273)
is ALLOWED.
April 24, 2017		/s/ RYA ZOBEL
DATE				RYA W. ZOBEL
SENIOR UNITED
STATES DISTRICT JUDGE
7. The issue of standing was not decided by the jury. Rather,
prior to commencement of trial, and after hearing the parties’
oral arguments, I denied Perrigo’s motion to dismiss for lack of
standing (Docket # 191) from the bench. See Docket # 224, at 72:710. Accordingly, the appropriate request for relief was a motion for
reconsideration.

82a
Appendix A OF THE UNITED
APPENDIX F — JUDGMENT
STATES DISTRICT COURT FOR THE
DISTRICT OF MASSACHUSETTS
FILED DECEMBER 19, 2016
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 13CV11640-RWZ
BRIGHAM AND WOMEN’S HOSPITAL et al.,
Plaintiff(s),
v.
PERRIGO COMPANY et al.,
Defendant(s).
JUDGMENT IN A CIVIL CASE
 Jury Verdict. This action came before the court for a
trial by jury. The issues have been tried and the jury
has rendered its verdict.
 Decision by the Court. This action came to trial or
hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED:
Judgment entered for Plaintiffs.
Dated: 12/19/16		
				

By /s/ Lisa A. Urso
Deputy Clerk

83a
AppendixOF
G REHEARING OF
APPENDIX G — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED MAY 2, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
BRIGHAM AND WOMEN’S HOSPITAL, INC.,
INVESTORS BIO-TECH, L.P.,
Plaintiffs-Cross-Appellants,
v.
PERRIGO COMPANY,
L. PERRIGO COMPANY,
Defendants-Appellants.
2017-1950, 2017-2021, 2017-2555, 2018-1243
Appeals from the United States District Court for the
District of Massachusetts in No. 1:13-cv-11640-RWZ,
Judge Rya W. Zobel.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
CHEN, HUGHES, and STOLL, Circuit Judges.*
* Circuit Judge Taranto did not participate.

84a
Appendix G
PER CURIAM.
ORDER
Cross-Appellants Brigham and Women’s Hospital,
Inc. and Investors Bio-Tech, L.P. filed a combined petition
for panel rehearing and rehearing en banc. The petition
was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 9, 2019.
FOR THE COURT
May 2, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

